<html>
<title> - EMERGING THREATS TO RAIL SECURITY</title>
<body><pre>[Senate Hearing 112-145]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-145

                   EMERGING THREATS TO RAIL SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

71-203 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Brian M. Hendricks, Republican Staff Director and General Counsel
            Todd Bertoson, Republican Deputy Staff Director
                Rebecca Seidel, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 14, 2011....................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Udall.......................................     3
Statement of Senator Wicker......................................    24
Statement of Senator Boozman.....................................    28
Statement of Senator Klobuchar...................................    30

                               Witnesses

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     4
    Prepared statement...........................................     5
Stephen M. Lord, Director, Homeland Security and Justice Issues, 
  U.S. Government Accountability Office..........................     9
    Prepared statement...........................................    10
John O'Connor, Vice President and Chief of Police, Amtrak Police 
  Department, National Railroad Passenger Corporation............    18
    Prepared statement...........................................    19

                                Appendix

Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to Hon. John S. Pistole..............................    37
Brian Michael Jenkins, Director, National Transportation Security 
  Center of Excellence, Mineta Transportation Institute, prepared 
  statement......................................................    38

 
                   EMERGING THREATS TO RAIL SECURITY

                              ----------                              


                         TUESDAY, JUNE 14, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:53 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. My profound apologies. I know each one 
of you has worked hard to bring the information that we're 
looking for today to the forefront, and so again, my apologies. 
And the lack of presence here in no way suggests a lack of 
interest, but we did have a fairly difficult discussion that 
took place before the vote, so that's why there are some delays 
here.
    But we're pleased to see you. And I don't think I have to 
strike the gavel to get order in the room. It looks like a 
pretty orderly group, so it counts.
    Anyway, I thank you all for being here.
    Six weeks after the American military's courageous and 
daring raid on Osama bin Laden's compound, one thing is clear: 
the ruthless killer is dead and gone, but al Qaeda, as we know, 
remains determined to strike the U.S. again. According to 
reports, documents recovered from bin Laden's compound show 
that he wanted to mark the 10th anniversary of 9/11 by 
attacking trains, surface transportation, in our country.
    This discovery sends tremors down our spines, but it 
shouldn't surprise us. The choices they make for targets are 
those that have lots of people in the area and where they can 
inflict damage that will be felt throughout the area, 
throughout the country, even though it's in a relatively small 
bit of geography.
    Terrorists have been focused on trains for years, and we've 
seen attacks overseas, including bombings in London, Mumbai, 
Madrid, and Moscow. Terrorists have attacked trains and buses 
1,700 times--hard to imagine--worldwide since 9/11, and the 
attacks unfortunately took 3,700 lives. And trains have been 
targeted here in our country. Since 9/11, we've foiled several 
planned attacks on our public transportation network, including 
one last fall when the FBI arrested a man who was plotting to 
blow up four stations in Washington, D.C.'s own Metro system. 
We've got to recognize that our surface transportation network 
is enormous, heavily traveled, and is therefore an attractive 
target.
    Americans take more trips on trains than other public 
transportation, than they do on commercial airliners. The 
public takes 700 million flights a year. But compared to 10 
billion trips aboard subways, buses, trains, and other forms of 
public transportation, it shows you a relationship that should 
not and cannot be ignored.
    Consider Amtrak's success. Last year, nearly 29 million 
passengers traveled aboard Amtrak, an all-time high, and a 
number Amtrak is projected to beat this year, and I can verify 
that because I use Amtrak regularly.
    I came down yesterday. And forgive the light moment, but 
last week, while someone tried to get a couple of bags aboard, 
legitimate, the attendant in the train was left standing on the 
platform when the train left. So the bags were in, but the 
person working in the train, on the train itself was left 
behind. So I think there was a little bit of imbalance in terms 
of what was required.
    Amtrak's passengers travel on 21,000 miles of track through 
500 train stations. Our rail network is as vast as it is open, 
making trains appealing targets for terrorists.
    Simply put, rail offers easy access and a chance to strike 
with high casualties. Make no mistake, the threat to America's 
rail network is real, and we've got to do whatever we can to 
keep it secure. At the federal level, this responsibility 
largely rests with TSA, Transportation Security Administration.
    When we think of TSA, many only consider its work to secure 
aviation. But this vital agency has to protect our entire 
transportation system, including trains. Despite this, 98 
percent of TSA's budget is dedicated to aviation security, 
leaving less than 2 percent for rail security.
    So for years, I've been sounding the alarm that our 
attention has been too lopsided, too one-sided rather, and that 
we can't only focus on aviation security.
    The Government Accountability Office agrees and has issued 
multiple recommendations in recent years calling on TSA to do 
more to safeguard rail and other surface transportation 
networks. TSA is taking steps to strengthen rail security, but 
the agency and the Department of Homeland Security still 
haven't carried out the many requirements outlined in the 9/11 
Act, which became law in 2007.
    Now, I'm committed to helping these agencies get the 
resources they need, but it's no surprise it's an uphill fight 
right now. The House majority, the House Republicans, recently 
voted to slash Homeland Security grant funding, including 
funding for public transportation security grants, in a move 
that would seriously undermine our efforts to keep Americans 
safe when they travel.
    I want to be clear. We're going to do what we can to fight 
to defeat those cuts.
    But we also need to know what TSA is doing to improve rail 
security now, including training employees, improving 
technology and infrastructure. So I look forward to hearing 
from Amtrak about what they and other train operators are doing 
to keep their passengers safe and secure. But I want to be sure 
that we cannot stand to take large cuts in resource, reductions 
in funding, and tell the American public honestly that we're 
doing whatever we can to protect them, and that's a fight that 
we all have to be engaged in.
    Cuts are interesting. But if they're cuts to your body, to 
your basic operations, to the things that you do, they hurt, 
and we have to figure out a way not just to do the cuts but to 
do more to reduce our deficit and not contribute more to debt.
    So it's a subject I take a great deal of interest in, and 
I'm going to work to see what we can do about making certain 
that we have the resources available to provide the quality and 
the kind of security that's necessary, and I know all of you 
agree.
    So I look forward to hearing, as I said, from what Amtrak 
and other operators are going to do to keep passengers, or are 
doing presently to keep their passengers safe and secure.
    And the timely arrival of our distinguished colleague, 
Senator Hutchison, and I would ask, if you have an opening 
statement, please offer that now, and we'll continue our 
process.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I won't read my whole statement, Mr. 
Chairman, except to say that I'm glad that you're having the 
hearing. I won't be able to stay for all of it, but I think we 
all know that rail transportation has not been in the forefront 
of our transportation security efforts. I think aviation 
certainly has been dominant, and I do think that we need to see 
how we can do that more with the resources that we have, and I 
realize that the responsibility for all transportation is 
challenging, to say the least.
    In addition to aviation, you've got trucks. You've got 
rail. You've got freight. So there is a big challenge, which we 
understand, but I am very concerned that we not leave it to 
chance and certainly that we put the effort into it, and 
especially I hope that you will address the issue of the DHS 
Inspector General recommending that the surface inspectors 
report to an official with surface responsibilities, as opposed 
to the aviation person, because there are differences. And I 
think with management, we certainly ought to be able to focus 
more efforts at the specific needs of surface, particularly in 
this case rail.
    So thank you for calling the hearing, and I will look 
forward to seeing the testimony if I don't get it.
    Senator Lautenberg. Senator Udall, your opening statement, 
if you'd like to make one.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. We'll put the opening statement in the 
record, and let's get to the witnesses.
    Senator Lautenberg. That's an uncommon but kind gesture.
    And so now I acknowledge the presence of the witnesses, 
each one bringing significant expertise to the issue of rail 
security.
    Mr. John Pistole, Administrator of the TSA, the 
Transportation Security Administration, and he will update us 
on TSA's rail security efforts.
    Mr. Stephen Lord, Director of Homeland Security and Justice 
Issues for the GAO, the Government Accountability Office, and 
we'll listen with interest to your recommendations.
    Mr. O'Connor, John O'Connor, Amtrak's Chief of Police, 
Acting Vice President of the Office of Security and Special 
Operations. Chief O'Connor will discuss with us the challenges 
facing Amtrak and the steps it's taking in light of emerging 
threats.
    I thank all of you for being here.
    Mr. Pistole, if you would, please begin, and we ask you to 
try to keep your remarks confined to 5 minutes.

       STATEMENT OF HON. JOHN S. PISTOLE, ADMINISTRATOR,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Thank you, Chairman Lautenberg and Ranking 
Member Hutchison, Senator Udall. And thank you for your strong 
support for not only what TSA does but for our partners as we 
try to address the surface transportation issues that we're all 
so aware of.
    So I'm pleased to appear before the Committee today to 
discuss the efforts of TSA in partnership with DHS, FEMA and 
Amtrak, and many industry leaders to provide mass transit and 
passenger rail security.
    Last month the President announced the U.S. operation that 
resulted in the death of Osama bin Laden, and this effort 
marked an historic counterterrorism success for our country and 
for the world, as have the recently announced deaths of Ilyas 
Kashmiri in Pakistan and Harun Fazul in Somalia. Of course, we 
believe Kashmiri has been responsible for most of the western 
operations for al-Qaeda core, and then Harun Fazul, leader of 
the 1998 embassy bombings in East Africa and much of the al-
Qaeda in East Africa work.
    But our efforts to combat terrorism go well beyond any one 
individual, or any one of these three, which is why we remain 
focused on our critical mission of protecting the traveling 
public and our transportation systems. TSA will continue to 
evaluate security protocols based on the latest intelligence, 
and will continue to share information with stakeholders to 
enable them to enhance protective measures and surge resources, 
as appropriate. And, of course, we ask the traveling public to 
remain vigilant and report any suspicious activity to the 
police.
    So, today I'm honored to appear with Chief O'Connor and 
Steve Lord to focus on mass transit systems and passenger 
railroads, which include subways, bus transit systems, ferries, 
Amtrak, commuter railroads, all of which, Mr. Chairman, as you 
noted, accounted for more than 10 billion trips for Americans 
last year alone. These systems are a critical part of the 
transportation network TSA works with our partners to protect.
    They also remain a target, as you noted, for terrorist 
groups, and have been the subject of numerous plots in the 
U.S., unsuccessful, fortunately, as well as the successful 
attacks that you noted overseas in Spain, the U.K., India, 
Moscow and elsewhere. These systems serve large populations and 
major metropolitan areas, and many have substantial underground 
infrastructures. Bridges and transportation staging areas are 
hubs which can also be attacked. And, of course, the 
consequences of an attack on any one of these systems in our 
country could be devastating.
    A critical component of TSA security efforts for mass 
transit and passenger rail is our partnerships with industry 
and local and regional stakeholders. DHS' comprehensive Transit 
Security Grant Program is currently the primary vehicle 
providing funding assistance for security enhancements to 
eligible transit agencies, supporting state and local 
government initiatives to improve security. TSA works with FEMA 
to fund projects that most effectively mitigate risk at the 
highest-risk systems.
    For example, in 2010 DHS awarded nearly $274 million to the 
transit and passenger rail industry, bringing the total since 
2006 to nearly $1.6 billion. In addition to grant funding, TSA 
supports the security of mass transit and rail systems by 
deploying Visible Intermodal Prevention Response teams, or VIPR 
teams, to augment local security efforts. And as you know, we 
currently have 25 dedicated VIPR teams in operation, and the 
fiscal 2012 budget request includes funding for an additional 
12 teams.
    In addition, TSA performs baseline and collaborative site-
specific risk assessments for mass transit and passenger rail 
systems, engaging state and local partners on how to reduce 
their individual vulnerabilities, assess risk, and improve 
security efforts. These assessments are conducted with emphasis 
on the 100 largest mass transit and passenger rail systems in 
terms of passenger volume, which collectively account for over 
80 percent of all users of public transportation. And, of 
course, among these assessments is a Baseline Assessment for 
Security Enhancement, or BASE, B-A-S-E, which is a 
comprehensive security assessment program designed to evaluate 
17 security and emergency management action items that form the 
foundation of an effective security program.
    We also work with our partners to assess risk and 
vulnerabilities in a number of other venues. We also work with 
the Federal Transit Authority and the Federal Railroad 
Administration, trade groups representing mass transit and 
passenger rail interests, and the transit and passenger rail 
agencies to improve security.
    In closing, I would like to stress again that collaboration 
is crucial for the success of mass transit and passenger rail 
security operations. TSA will continue to partner with law 
enforcement, industry, state, local and tribal officials, 
emergency responders and federal agencies to foster regional 
security collaboration to integrate resources for enhanced 
deterrence and response capabilities.
    Mr. Chairman, Ranking Member Hutchison, thanks for the 
opportunity to be here today.
    [The prepared statement of Mr. Pistole follows:]

      Prepared Statement of Hon. John S. Pistole, Administrator, 
  Transportation Security Administration, U.S. Department of Homeland 
                                Security
    Good afternoon, Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of the Committee. I appreciate the opportunity to 
appear before you today to discuss the Transportation Security 
Administration's (TSA) surface transportation programs.
    As you know, TSA's efforts in the surface transportation domain are 
undertaken to reduce security vulnerabilities and to strengthen 
resilience against terrorist attacks. In this domain, which includes 
mass transit systems, ferries, trucking, freight rail, and passenger 
rail, we work collaboratively with public and private sector partners 
to develop and to implement programs that promote commerce while 
enhancing security and mitigating the risk to our nation's 
transportation systems. We strive to maximize participation from state, 
local, tribal, and industry interests with a common goal of securing 
all modes of transportation.
DHS's Mission to Prevent Terrorism and Enhance Security
    TSA secures and safeguards mass transit and railroad operations 
through a variety of programs. Many of these programs enhance security 
by addressing policy gaps, enhancing coordination, and maximizing the 
use of partner strengths and capabilities as addressed in the March 
2010 Surface Transportation Security Priority Assessment. The primary 
mission of the Department of Homeland Security (DHS)--Preventing 
Terrorism and Enhancing Security--is strongly supported by TSA and is 
aligned with DHS's programmatic activities and organizational structure 
as found in the 2010 Quadrennial Homeland Security Review and 
corresponding Bottom-Up Review Report.
    Due to the large populations and substantial infrastructure served 
by mass transit and national railroad systems, these networks remain a 
target for terrorist groups. Moreover, an open architecture connecting 
millions of passengers in major metropolitan areas creates inherent 
potential security vulnerabilities. TSA thus employs advanced risk-
based, intelligence-driven techniques to prevent terrorist attacks and 
to reduce the vulnerability of the nation's transportation systems to 
terrorism.
    Recognizing that the risk from terrorism and other hazards to 
surface transportation demands a coordinated approach involving all 
sector partners and stakeholders, the federal government initiated a 
comprehensive review of U.S. surface transportation security efforts 
across all modes of surface transportation in 2009. The resulting 
Surface Transportation Security Priority Assessment (STSPA), released 
in April 2010, identified interagency priorities for the following four 
years and provided concrete recommendations on how to enhance security 
efforts and maximize the use of partnerships to optimize public safety, 
facilitate commerce, and strengthen the resiliency of the country's 
surface transportation system.
    DHS has completed risk-based implementation plans for each of the 
20 consensus recommendations of the STSPA, further addressing the 
potential risks to the surface transportation system and its four 
subsectors (mass transit and passenger rail, highways and motor 
carriers, freight rail, and pipelines). These plans focus on improving 
information sharing, increasing coordination among federal agencies 
involved in the transportation sector, and improving the effectiveness 
and efficiency of the grants process. As of May 2011, 10 
recommendations have been fully implemented and the implementation of 
the others is underway.
Collaboration with Federal, State, Local, Tribal, and Private Entities
    Over the past several years, DHS has been working to establish a 
new architecture in order to better defend against these evolving 
terrorist threats. This new architecture includes an emphasis on 
collaboration across government as well as in concert with private 
industry and the American public.
    In 2005, DHS and the Department of Transportation (DOT) signed the 
Public Transportation Security Annex to the DHS/DOT Memorandum of 
Understanding (MOU). This agreement promotes security collaboration 
between federal, state, local, tribal, and private entities. To 
implement the Annex, TSA--in collaboration with DOT's Federal Transit 
Administration and the Federal Emergency Management Agency's Grant 
Programs Directorate--develops a framework to leverage each agency's 
unique resources and capabilities. The Annex also identifies specific 
areas of coordination among the parties including citizen awareness, 
information sharing, security standards, data collection and analysis, 
and technical resource documents.
    In 2010, in collaboration with the U.S. Department of Justice and 
Amtrak, TSA announced a significant step toward enhancing the security 
of the nation transportation infrastructure with the implementation of 
the Nationwide Suspicious Activity Reporting Initiative (NSI) 
capability throughout the entire Amtrak rail system. The NSI is a 
partnership among federal, state, and local law enforcement to 
establish a standard process for law enforcement to identify and report 
suspicious incidents or activity and share that information nationally 
so it can be analyzed to identify broader trends. Under this 
collaborative program, Amtrak officers are also utilizing an upgraded 
reporting system--made available by TSA--to refer suspicious activity 
reports to DHS and the Federal Bureau of Investigation (FBI) for 
analysis and follow-up.
    DHS fosters regional security coordination and to integrate the 
spectrum of available resources for enhanced deterrent and response 
capabilities while empowering our state and local partners through 
training and exercise grant programs like the Department's Transit 
Security Grant Program. TSA works to improve security with security 
stakeholders outside of the federal government. Key partners include 
trade groups representing mass transit and passenger railroad interests 
and the mass transit and passenger railroad agencies as well as senior 
executives, law enforcement chiefs, and emergency responders. The 
sector partnership model under the National Infrastructure Protection 
Plan (NIPP) provides a strong framework for TSA to work with other 
Federal, state, local, and private sector partners on critical 
infrastructure protection and resilience, especially in the area of 
surface transportation.
    We are also making considerable progress engaging the public in 
transportation security. DHS launched the ``If You See Something, Say 
Something <SUP>TM</SUP> '' campaign last summer to raise public 
awareness of indicators of terrorism, crime and other threats, and 
emphasize the importance of reporting suspicious activity to law 
enforcement authorities. This campaign is being expanded to places 
where the NSI is being implemented, to ensure that calls to authorities 
will be handled appropriately, in an environment where privacy and 
civil liberties protections are in place. The NSI is currently active 
in 15 states (California, Florida, Georgia, Indiana, Minnesota, 
Missouri, Nebraska, New Jersey, New York, Ohio, South Carolina, 
Tennessee, Texas, Virginia, and Wisconsin) and 15 major cities (Boston, 
Cincinnati, Dallas, District of Columbia, Houston, Kansas City, MO, Las 
Vegas, Los Angeles, Miami, Milwaukee, Phoenix, Sacramento, San Diego, 
San Francisco, and Seattle).
    To protect the public in this effort, TSA promulgated a final rule 
that strengthens the process by which individuals can report problems, 
deficiencies, or vulnerabilities related to transportation security 
including the security of aviation, commercial motor vehicles, 
maritime, pipelines, public transportation, and railroad carriers.\1\ 
The rule establishes a mechanism by which an individual who makes such 
a report to the TSA Contact Center will receive either a written 
receipt or a call identification number. The receipt mechanism will 
allow individuals who spot deficiencies in security measures to have 
documentation in case they receive any retaliation for reporting their 
concerns to TSA.
---------------------------------------------------------------------------
    \1\ 76 Fed. Reg. 22625 (April 22, 2011).
---------------------------------------------------------------------------
Using Intelligence to Improve Surface Transportation Security
    Information sharing is critical to getting resources and 
intelligence out of Washington, D.C. and into the hands of state and 
local law enforcement, giving those on the frontlines the tools they 
need to protect local communities. Timely, accurate intelligence and 
security information is provided by TSA to mass transit and passenger 
railroad agency officials through joint efforts among DHS Office of 
Intelligence and Analysis, TSA Office of Intelligence, and FBI 
classified intelligence and analysis briefings. Consumers of such 
information include mass transit and passenger railroad security 
directors and law enforcement chiefs in major metropolitan areas as 
well as Amtrak.
    Intelligence products are provided to partners through TSA Mass 
Transit Security Awareness Messages as well as through the Joint 
Terrorism Task Force network's secure video teleconferencing system. 
TSA is constantly working with our partners to enhance the scope, 
accuracy, timeliness, and efficiency of information sharing in order to 
develop a comprehensive intelligence and security information sharing 
platform.
Collaborative Risk Assessment Initiatives
    TSA is developing and fielding a risk assessment capability focused 
on individual mass transit and passenger railroad agencies, their 
regional security partners, and connecting and adjoining transportation 
systems. This effort aims to produce several risk and vulnerability 
assessment tools integrated into a single platform so that TSA and its 
component security partners in DHS can conduct joint assessments of 
mass transit and passenger railroad agencies, employing resources more 
efficiently and improving the audit process. In addition, structural 
vulnerability assessments are currently being conducted on the Nation's 
most critical highway, bridge and tunnel infrastructure. These 
assessments, performed for TSA by the U.S. Army Corps of Engineers, are 
the most comprehensive assessments that have ever been performed.
    By performing baseline and collaborative risk assessments in the 
mass transit and passenger railroad domains, TSA is able to engage 
state and local partners to identify ways to reduce vulnerabilities, 
assess risk, and improve security efforts. These assessments are 
conducted with emphasis on the 100 largest mass transit and passenger 
railroad systems in terms of passenger volume. This group accounts for 
over 80 percent of all users of public transportation.
    TSA uses the Transportation Sector Security Risk Assessment (TSSRA) 
to evaluate threat, vulnerability, and potential consequences for more 
than 200 terrorist attack scenarios for mass transit and passenger 
railroads. TSSRAs rate threat capabilities and likelihood of execution 
as well as vulnerabilities of rail and bus systems and infrastructure 
while considering casualties, property damage, and impacts on the 
transportation network. TSA uses the assessments to inform mitigation 
priorities, both across the sector and by individual mode, for 
collaborative security strategies, program development, and resource 
allocations.
    The Baseline Assessment for Security Enhancement (BASE) is a 
comprehensive security assessment program designed to evaluate 17 
security and emergency management action items that form the foundation 
of an effective security program. BASE is intended to elevate the 
security posture and readiness throughout the mass transit and 
passenger railroad network by implementing and sustaining baseline 
security measures applicable to the operating environment and 
characteristics of mass transit systems and passenger railroads. TSA 
implements this continuous improvement process through its 
Transportation Security Inspectors, who conduct the assessments in 
partnership with the mass transit and passenger railroad agencies' 
security chiefs and directors. These evaluations have significantly 
contributed to an elevation in the mass transit and passenger railroad 
security posture.
Promoting Surface Transportation Security
    In compliance with federal law, TSA has created the Intermodal 
Security Training and Exercise Program (I-STEP). I-STEP enhances the 
preparedness of our nation's surface-transportation sector network with 
meaningful evaluations of prevention, preparedness, and ability to 
respond to terrorist-related incidents. TSA has assembled a team of 
federal agencies and commercial vendors to provide planning and 
strategic support as well as analytical and technical services for 
transportation security training and exercises under the I-STEP 
program.
    Through outreach, TSA engages all modes of the intermodal 
transportation community to continuously improve security readiness. I-
STEP offers an intermodal transportation-security training and exercise 
program for our Nation's transportation network communities. The 
program improves the transportation industry's ability to prepare for 
and respond to a transportation security incident by increasing 
awareness, improving processes, creating partnerships, and delivering 
transportation network security training and exercises.
    In addition to I-STEP, 25 Visible Intermodal Prevention and 
Response (VIPR) multi-modal teams are currently being operated by TSA 
while the FY 2012 budget request includes funding for 12 additional 
VIPR teams. These teams consist of personnel with expertise in 
inspection, behavior detection, security screening, and law enforcement 
for random, unpredictable deployments throughout the transportation 
sector to deter potential terrorist acts. Working alongside local law 
enforcement agencies throughout the transportation domain, TSA's VIPR 
teams enhance the agency's ability to leverage a variety of resources 
quickly in order to increase security in any mode of transportation 
anywhere in the country. TSA conducted more than 8,000 VIPR operations 
in the past 12 months, including more than 3,700 operations in mass 
transit and passenger railroad venues. VIPR operational plans are 
developed with a risk-based methodology in conjunction with local 
transportation security stakeholders and conducted jointly by TSA, 
local law enforcement, and transportation security resources.
    TSA and the representatives of the Transit Policing and Security 
Peer Advisory Group work together to enhance coordination and deterrent 
effects of VIPR team operations. This cooperation has grown since the 
mutually agreed upon operating guidelines for ``Effective Employment of 
Visible Intermodal Prevention and Response Teams in Mass Transit and 
Passenger Rail'' were implemented in October 2007.
Advancing Security Initiatives through Federal Grants
    As I previously mentioned, DHS employs a comprehensive 
transportation security grant program (TSGP) to provide awards to 
eligible transit agencies to assist state and local governments in 
devising and implementing initiatives to improve security. The TSGP 
promotes a sustainable, risk-based effort to protect critical surface 
transportation infrastructure and the traveling public from acts of 
terrorism. The program is the primary vehicle providing funding 
assistance for security enhancements to eligible domestic mass transit 
and passenger railroad agencies and employs risk-based prioritization 
for funding decisions.
    In 2010, the TSGP provided $273.4 million to the transit and 
passenger railroad industry and a total of $1.6 billion since 2006. 
Similar, but smaller grant programs have supported overthe-road bus 
operations. Approximately $175 million has been awarded through TSGP 
for operational deterrence activities, which include public awareness 
campaigns, training, drills, and exercises since FY 2006. TSGP funding 
also supports non-federal law enforcement positions for anti-terrorism 
activities. DHS has awarded $29.9 million since FY 2006 for 60 canine 
teams and $93.6 million for 304 officers to create 77 anti-terrorism 
teams. These officers enhance security, provide a visible deterrent and 
augment our nimble, risk-based approach to provide assistance where it 
can best be put to use. Transit, passenger railroad, and law 
enforcement agencies have also been provided TSGP funds to hire non-
federal officers to serve as mobile explosives detection screeners. The 
officers for each of these teams are employees of the transit system/
passenger railroad/law enforcement agency and are deployed according to 
security needs within the local transit or passenger railroad system.
    In an effort to further harden critical surface transportation 
infrastructure, in 2010, TSA, in coordination with DOT and other DHS 
offices, developed and implemented the ``National Strategy for Highway 
Bridge Security,'' to conduct the most comprehensive structural 
security assessments to date on more than 60 of the Nation's most 
significant highway structures, including bridges, tunnels and 
terminals. DHS is making strides across the department to improve 
critical infrastructure protection activities. Grants have been used to 
support intrusion detection, physical hardening, and surveillance 
measures for underwater tunnels, bridges, and multi-user high-volume 
stations. The TSGP has funded $155.2 million for underwater tunnel 
hardening, $168.5 million for critical station physical security 
measures, and over $28 million for suspension bridge hardening since FY 
2006.
Conclusion
    Our goal at all times is to maximize transportation security to 
stay ahead of the evolving terrorist threat while protecting 
passengers' privacy and facilitating the flow of legitimate commerce. 
TSA works collaboratively with industry partners to develop and 
implement programs that promote commerce while enhancing security and 
mitigating the risk to our Nation's transportation system. I want to 
thank the Committee for its continued assistance to TSA and for the 
opportunity to discuss the important issues related to surface 
transportation security. I am pleased to answer any questions you might 
have.

    Senator Lautenberg. Thanks very much, Mr. Pistole.
    Mr. Lord, your opportunity, please.

            STATEMENT OF STEPHEN M. LORD, DIRECTOR,

             HOMELAND SECURITY AND JUSTICE ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Chairman Lautenberg, Ranking Member 
Hutchison, and Senator Udall. I'm pleased to be here today to 
discuss TSA's efforts to enhance rail security.
    This is an important issue given the recent intelligence 
recovered from the bin Laden compound and the prior 
unsuccessful plots to bomb the New York Transit and D.C. Metro 
systems. As you know, these systems are vulnerable to attack 
because they rely on the open architecture that is difficult to 
monitor and secure.
    Today I'd like to discuss three issues: first, the DHS risk 
assessment process used to focus its security efforts; second, 
the status of TSA's efforts to provide security training for 
public transportation and front-line rail employees; and third, 
TSA's efforts to streamline the vast amount of security 
information it provides to rail stakeholders.
    Regarding the first point, as we reported today in our 
written statement, TSA has made steady progress in improving 
the risk assessments across all modes of transportation, 
including rail. For example, last June, in response to a prior 
GAO recommendation, TSA completed a comprehensive assessment of 
security risk across the entire transportation sector, 
including the passenger and freight rail modes. And although 
TSA's assessment excluded some important types of threats such 
as the threat of the lone wolf attack, this was a good first 
step. And TSA will issue an updated assessment later this year 
that will reportedly address some of the limitations we noted.
    TSA has also expanded efforts to assess the risks of mass 
transit, passenger rail, and freight rail systems. For example, 
TSA has completed additional assessments of potential security 
threats to freight rail bridges and tunnels in response to one 
of our prior report recommendations, and as of June 2011, this 
month, the agency reported it had completed assessments of 77 
bridges and 26 freight rail tunnels. These are positive steps.
    I would now like to discuss TSA's efforts to develop 
security training programs for public transportation rail 
employees. This is an important issue because in 2007 TSA 
identified the need for more consistent, systematic security 
training of mass transit and passenger rail personnel. The 9/11 
Act also mandated that TSA develop regulations for providing 
training to public transportation and front-line rail 
employees.
    During our recent discussions with TSA about actions to 
meet the mandate, the agency reported it will issue a Notice of 
Proposed Rulemaking for public comment by November of this 
year, and although that's a positive step, it's also worth 
noting this is over 4 years past the original mandated 
deadline.
    This training is important because it's designed to improve 
the consistency of the training and the quality of the training 
provided to these personnel, including training in 
coordination, communications, and evacuation procedures.
    The last issue I'd like to address is information sharing. 
Our past work has identified significant streamlining 
opportunities in this area. For example, our September 2010 
report identified potential overlap among three key federal 
mechanisms used to share security information with public 
transit agencies. And to help improve information sharing, TSA 
and key industry groups have developed the so-called Transit 
and Rail Intelligence Awareness Daily, or TRIAD, report. We 
think this is a positive development to streamline the exchange 
of intelligence and security information.
    However, our ongoing work also indicates that freight rail 
agencies still have concerns about federal information-sharing 
efforts. Our concerns center around two issues, the analytical 
content of reports, and the actionability of the information 
provided. For example, security officials at three Class 1 
railroads we interviewed recently raised significant concerns 
about the actionability of the provided information. TSA 
officials agreed that improvements are needed in this area and 
are taking steps to address them, and we're going to report, 
we're going to issue a report on this issue later this year.
    Mr. Chairman, this concludes my testimony. I look forward 
to answering any questions that you or other members of the 
Committee may have. Thank you.
    [The prepared statement of Mr. Lord follows:]

Prepared Statement of Stephen M. Lord, Director, Homeland Security and 
         Justice Issues, U.S. Government Accountability Office
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee:
    I appreciate the opportunity to participate in today's hearing to 
discuss security issues related to the U.S. rail system, including mass 
transit, intercity passenger rail (Amtrak), and freight rail. Rail 
systems in the United States have received heightened attention as 
several alleged terrorists' plots have been uncovered, including plots 
against transit systems in the New York City and Washington, D.C., 
areas. Intelligence recovered from Osama bin Laden's compound indicates 
that U.S. rail systems were a suggested target as recently as February 
2010, although there has been no indication of a specific or imminent 
threat to carry out such an attack. Terrorist attacks on rail systems 
around the world--such as the March 2010 Moscow, Russia, subway 
bombings, and the May 2010 passenger train derailment near Mumbai, 
India, that resulted in approximately 150 fatalities--highlight the 
vulnerability of these systems to terrorist attacks. Further, the 
Mineta Transportation Institute has reported that terrorists attempted 
to derail trains on at least 144 occasions between 1995 and 2010, many 
of which were in South Asia and mostly through the use of track 
bombs.\1\
---------------------------------------------------------------------------
    \1\ The Norman Y. Mineta International Institute for Surface 
Transportation Policy Studies was established by the Intermodal Surface 
Transportation Efficiency Act of 1991. Pub. L. No. 102-240,  6024, 105 
Stat. 1914 (1991). The institute's transportation policy work is 
centered on, among other things, research into transportation security, 
planning, and policy development.
---------------------------------------------------------------------------
    One of the critical challenges facing rail system operators--and 
the federal agencies that regulate and oversee them--is finding ways to 
protect rail systems from potential terrorist attacks without 
compromising the accessibility and efficiency of rail travel. The 
systems are vulnerable to attack in part because they rely on an open 
architecture that is difficult to monitor and secure due to its 
multiple access points, hubs serving multiple carriers, and, in some 
cases, no barriers to access. Further, rail systems' high ridership, 
expensive infrastructure, economic importance, and location in large 
metropolitan areas or tourist destinations make them attractive targets 
for terrorists. In addition, the multiple access points along extended 
routes make the costs of securing each location potentially 
prohibitive.
    My testimony today focuses on the following issues: (1) To what 
extent has the Department of Homeland Security (DHS) conducted 
comprehensive risk assessments to inform its security efforts across 
all modes of transportation, including rail? (2) What technologies are 
available to assist rail operators in securing their systems? (3) What 
is the status of Transportation Security Administration's (TSA) efforts 
regarding security training for frontline rail employees? (4) How 
satisfied are rail stakeholders with the quality of security-related 
information TSA is providing?
    This statement is based on related GAO reports issued from March 
2009 through September 2010, including selected updates conducted from 
May 2011 through June 2011, on TSA's efforts to implement our prior 
recommendations regarding surface transportation security.\2\ In 
conducting these updates, we obtained information from TSA regarding 
the agency's efforts to develop regulations for security training 
programs for rail employees and to enhance its overall risk management 
approach to rail security, among other things. Our previous reports 
incorporated information we obtained and analyzed from officials from 
various components of DHS, the Department of Transportation (DOT), 
state and local transportation and law enforcement agencies, and 
industry associations, as well as a survey of 96 U.S. public transit 
agencies (that represented about 91 percent of total 2008 ridership). 
Our previously published products contain additional details on the 
scope and methodology, including data reliability, for those reviews. 
In addition, this statement includes preliminary observations based on 
ongoing work, the results of which will be issued in a report later 
this year, assessing the extent to which freight rail carriers that 
receive security-related information are satisfied with the products 
and mechanisms that TSA uses to disseminate this information, among 
other things.\3\ As part of this ongoing work, we surveyed all seven 
Class I freight rail carriers.\4\ We also interviewed security 
officials from three Class I freight rail carriers selected on the 
basis of their location. While the results of our interviews are not 
generalizable to all Class I rail carriers, the responses provide 
perspectives and examples to expand on survey findings. All of our work 
was conducted in accordance with generally accepted government auditing 
standards. These standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings based on our audit objectives. For new information that 
was based on work not previously reported, we obtained TSA views on our 
findings and incorporated technical comments where appropriate.
---------------------------------------------------------------------------
    \2\ Surface transportation security includes the mass transit and 
passenger rail, freight rail, highway and commercial vehicle, and 
pipeline modes. Please see the list of related products at the end of 
this testimony statement.
    \3\ This work is being conducted in response to a mandate in the 
Implementing Recommendations of the 9/11 Commission Act (9/11 
Commission Act). Pub. L. No. 110-53,  1203(a), 121 Stat. 266, 383 
(2007).
    \4\ As defined by revenue, for 2009, Class I railroads are freight 
rail carriers having annual operating revenues of $379 million or more. 
See 49 C.F.R. pt. 1201, General Instructions 1-1. The railroads include 
CSX Transportation (CSX), BNSF Railway Company (BNSF), Union Pacific 
Railroad Company (Union Pacific), Norfolk Southern, Kansas City 
Southern Railway Company, Canadian National Railway, and Canadian 
Pacific Railway.
---------------------------------------------------------------------------
Background
    TSA is the primary federal agency responsible for overseeing the 
security of the mass transit, passenger rail, and freight rail systems. 
However, several other agencies, including DOT's Federal Transit 
Administration (FTA) and Federal Railroad Administration (FRA), also 
play a role in helping to oversee these systems. Since it is not 
practical or feasible to protect all assets and systems against every 
possible terrorist threat, DHS has called for using risk-informed 
approaches to prioritize its security-related investments and for 
developing plans and allocating resources in a way that balances 
security and commerce.\5\
---------------------------------------------------------------------------
    \5\ A risk management approach entails a continuous process of 
managing risk through a series of actions, including setting strategic 
goals and objectives, assessing risk, evaluating alternatives, 
selecting initiatives to undertake, and implementing and monitoring 
those initiatives.
---------------------------------------------------------------------------
    In June 2006, DHS issued the National Infrastructure Protection 
Plan (NIPP), which established a six-step risk management framework to 
establish national priorities, goals, and requirements for Critical 
Infrastructure and Key Resources protection so that federal funding and 
resources are applied in the most cost-effective manner to deter 
threats, reduce vulnerabilities, and minimize the consequences of 
attacks and other incidents. The NIPP, updated in 2009, defines risk as 
a function of three elements:

  <bullet> threat--an indication of the likelihood that a specific type 
        of attack will be initiated against a specific target or class 
        of targets;

  <bullet> vulnerability--the probability that a particular attempted 
        attack will succeed against a particular target or class of 
        targets; and

  <bullet> consequence--the effect of a successful attack.

    In August 2007, the Implementing Recommendations of the 9/11 
Commission Act (9/11 Commission Act) was signed into law, which 
included provisions that task DHS with actions related to surface 
transportation security.\6\ Among other things, these provisions 
include mandates for developing and issuing regulations for 
transportation security training programs and ensuring that 
transportation modal security plans include threats, vulnerabilities, 
and consequences for transportation infrastructure assets including 
rail.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 110-53, 121 Stat. 266 (2007).
---------------------------------------------------------------------------
TSA Has Made Progress in Conducting Comprehensive Risk Assessments 
        Across All Modes of Transportation, Including Rail
    In response to our previous recommendations, TSA has taken steps to 
conduct comprehensive risk assessments across the transportation sector 
and within the passenger and freight rail modes that are based on 
assessments of threat, vulnerability, and consequence. In March 2009, 
we reported that TSA had taken some actions to implement a risk 
management approach but had not conducted comprehensive risk 
assessments that integrate threat, vulnerability, and consequence for 
each mode or the transportation sector as a whole, as called for by the 
NIPP.\7\ We recommended that TSA conduct risk assessments that combine 
these three elements to help the agency produce a comparative analysis 
of risk across the entire transportation sector, which the agency could 
use to inform current and future investment decisions.
---------------------------------------------------------------------------
    \7\ GAO, Transportation Security: Comprehensive Risk Assessments 
and Stronger Internal Controls Needed to Help Inform TSA Resource 
Allocation, GAO-09-492 (Washington, D.C.: Mar. 27, 2009).
---------------------------------------------------------------------------
    DHS concurred with this recommendation, and in June 2010 TSA 
produced the Transportation Sector Security Risk Assessment (TSSRA), 
which assessed risk within and across the various aviation and surface 
transportation modes, including rail, and incorporated threat, 
vulnerability, and consequence.\8\ A September 2009 letter from the 
Director of DHS's Office of Risk Management and Analysis noted that in 
developing the TSSRA, TSA was making progress toward developing a 
strategic and comprehensive risk management approach that would better 
align with DHS's risk management framework and address our 
recommendations. However, TSA noted limitations in the June 2010 TSSRA 
report that could limit its usefulness in guiding investment decisions 
across the transportation sector as a whole. For example, the TSSRA 
excluded the maritime sector and certain types of threats, such as from 
``lone wolf'' operators. In June 2011, agency officials stated that TSA 
is working to address these limitations in the next version, which is 
scheduled for completion by the end of calendar year 2011. TSA also 
said that it is strengthening and enhancing the TSSRA methodology based 
on an ongoing independent verification and validation that is scheduled 
for completion later this year. In addition, TSA officials noted that 
other DHS components, such as the U.S. Coast Guard, conduct risk 
assessments of the maritime sector that complement the TSSRA.\9\
---------------------------------------------------------------------------
    \8\ According to TSA officials, passenger rail is included with 
mass transit in the TSSRA, although Amtrak is not listed in the TSSRA 
report as a participant. In June 2011, TSA officials stated that 
passenger rail would be more clearly broken out in the next version of 
TSSRA.
    \9\ We have reviewed the U.S. Coast Guard's risk assessment model 
as part of previous work. For example, see GAO, Maritime Security: DHS 
Progress and Challenges in Key Areas of Port Security, GAO-10-940T 
(Washington, D.C.: July 21, 2010). We are also reviewing it as part of 
our current review of integrated port security being conducted for your 
committee and expect to issue a report on the results of this effort 
later this year.
---------------------------------------------------------------------------
    With regard to assessments of mass transit and passenger rail 
transportation, we reported in June 2009 that although TSA had 
contributed to DHS's risk assessment effort, it had not conducted its 
own risk assessment of mass transit and passenger rail systems.\10\ We 
recommended that TSA conduct a risk assessment that integrates all 
three elements of risk. DHS officials concurred with the 
recommendation, and in March 2010 said that they had developed a mass 
transit risk assessment tool to assess risk to mass transit and 
passenger rail systems using threat, vulnerability, and consequence, in 
addition to the TSSRA. According to TSA, they have completed pilot 
tests of this tool on three transit systems as of June 2011 and 
anticipate assessing six additional transit systems by the end of the 
calendar year.
---------------------------------------------------------------------------
    \10\ GAO, Transportation Security: Key Actions Have Been Taken to 
Enhance Mass Transit and Passenger Rail Security, but Opportunities 
Exist to Strengthen Federal Strategy and Programs, GAO-09-678 
(Washington, D.C.: June 24, 2009).
---------------------------------------------------------------------------
    Similarly, in April 2009, we reported that TSA's efforts to address 
freight rail security were limited and did not focus on a range of 
threats identified by federal and industry assessments.\11\ TSA's 
security efforts focused almost entirely on transportation of Toxic 
Inhalation Hazards (TIH); however, other federal and industry 
assessments had identified additional potential security threats, such 
as risks to bridges and tunnels.\12\ We reported that although TSA's 
focus on TIH had been a reasonable initial approach, there are other 
security threats for TSA to consider and evaluate, including potential 
sabotage to critical infrastructure. We recommended that TSA expand its 
efforts to include all security threats in its freight rail security 
strategy. TSA concurred and reported that it had developed a Critical 
Infrastructure Risk Tool to measure the criticality and vulnerability 
of freight railroad bridges. As of June 2011, the agency has used this 
tool to assess 77 bridges, some of which transverse either the 
Mississippi or Missouri Rivers, and 26 freight rail tunnels.
---------------------------------------------------------------------------
    \11\ GAO, Freight Rail Security: Actions Have Been Taken to Enhance 
Security, but the Federal Strategy Can Be Strengthened and Security 
Efforts Better Monitored, GAO-09-243 (Washington, D.C.: April 21, 
2009).
    \12\ TIH include chlorine and anhydrous ammonia, which can be fatal 
if inhaled. Shipments of TIH, especially chlorine, frequently move 
through densely populated areas to reach, for example, water treatment 
facilities that use these products. We reported that TSA focused on 
securing TIH materials for several reasons, including limited resources 
and a decision in 2004 to prioritize TIH as a key risk requiring 
federal attention. Other federal and industry freight rail stakeholders 
agreed that focusing on TIH was a sound initial strategy because it is 
a key potential rail security threat and an overall transportation 
safety concern.
---------------------------------------------------------------------------
    Our prior work has also assessed TSA's efforts to incorporate risk 
management principles into the grant allocation process, and we 
reported that transit grant funding decisions could be improved with 
better assessments of vulnerability. For example, we reported in June 
2009 that the Transit Security Grant Program (TSGP) risk model included 
all three elements of risk, but could be strengthened by measuring 
variations in vulnerability.\13\ DHS held vulnerability constant in its 
assessments, which limits the model's overall ability to assess risk. 
We recommended that DHS strengthen its methodology for determining risk 
by developing a cost-effective method for incorporating vulnerability 
information in its TSGP risk model. DHS concurred with the 
recommendation, and in April 2010 TSA stated that it is reevaluating 
the risk model for the Fiscal Year 2011 grant cycle. In June 2011, TSA 
stated that it is considering asset-specific vulnerability when looking 
at risk, although TSA noted that the Federal Emergency Management 
Agency (FEMA) has ownership of the TSGP risk model. TSA provides input 
into the model, however. We are currently assessing DHS and FEMA 
efforts to improve the TSGP grant-allocation process as part of our 
current review of DHS grant programs being conducted for your committee 
and expect to issue a report on the results of this effort later this 
year.
---------------------------------------------------------------------------
    \13\ GAO, Transit Security Grant Program: DHS Allocates Grants 
Based on Risk, but Its Risk Methodology, Management Controls, and Grant 
Oversight Can Be Strengthened, GAO-09-491 (Washington, D.C.: June 
2009). The TSGP provides grant funding to the nation's key high-threat 
urban areas to enhance security measures for their critical transit 
infrastructure, including rail systems.
---------------------------------------------------------------------------
Technologies Are Available to Strengthen Rail Security, but Challenges 
        in the Rail Environment and Low Maturity of Some Technologies 
        May Limit Implementation
    Industry stakeholders have examined and implemented various 
technologies to enhance the security of the rail system. For example, 
in April 2009, we reported that several freight rail carriers we met 
with installed security cameras and monitoring equipment at some of 
their key facilities to better monitor the activities in and around 
these areas.\14\ We also reported that officials from three railroads 
and two chemical companies we met with stated that they had taken steps 
to attempt to better track the movements of their TIH rail shipments by 
installing Global Positioning System technology on their locomotives 
and tank cars. Similarly, in June 2009, we reported that many mass 
transit and passenger rail agencies reported making capital 
improvements to secure their systems.\15\ For example, 19 of the 30 
transit agencies we interviewed had embarked on programs since 2004 to 
upgrade their existing security technology, including upgrading closed 
circuit television at key station locations with video surveillance 
systems that alert personnel to suspicious activities and abandoned 
packages and installing chemical, biological, radiological, nuclear, 
and explosives detection equipment and laser intrusion detection 
systems in critical areas.\16\
---------------------------------------------------------------------------
    \14\ GAO-09-243.
    \15\ GAO-09-678.
    \16\ We also reported that TSA collaborates with DHS's Science and 
Technology Directorate to research, develop, and test various security 
technologies for applicability in mass transit and passenger rail 
systems, including explosive trace detection technologies, 
infrastructure protection measures, and behavior based and advanced 
imaging technologies.
---------------------------------------------------------------------------
    While industry has taken these steps to implement technology to 
enhance rail security, the nature of the rail system has presented 
challenges to further implementation. For example, we reported in July 
2010 that in commuter or light rail systems, many stations may be 
unmanned outdoor platforms without barriers between public areas and 
trains.\17\ Stations may also have few natural locations to place 
technologies to be able to screen passengers. With limited existing 
chokepoints, implementation of certain technologies may require station 
infrastructure modifications to aid in funneling passengers for 
screening. Similarly, challenges to using technology to secure the 
freight rail system include the size and open nature of the system, the 
need for railcars to be able to continuously move, and limited 
resources.
---------------------------------------------------------------------------
    \17\ GAO, Technology Assessment: Explosives Detection Technologies 
to Protect Passenger Rail, GAO-10-898 (Washington, D.C.: July 28, 
2010).
---------------------------------------------------------------------------
    We have also reported that several technologies are available to 
help address rail security challenges, but they are at varying levels 
of maturity and using them involves trade-offs in mobility, cost, and 
privacy. For example, in July 2010, we reported that the ability of 
explosives detection technologies to help protect the passenger rail 
environment depends both upon their detection performance and how 
effectively the technologies can be deployed in that environment.\18\ 
Detection performance of these technologies varies across the different 
technologies and additional limitations--such as limited screening 
throughput, privacy, openness, physical infrastructure, cost, and 
mobility concerns--have restricted their more widespread or more 
effective use in passenger rail. More-established explosives detection 
technologies--such as handheld explosive trace detection systems, X-
raying imaging systems, and canines--have demonstrated good performance 
against many conventional explosives threats but are challenged by 
threats from certain explosives.\19\ Newer technologies--such as 
Explosive Trace Portals (ETP), standoff detection systems, and Advanced 
Imaging Technologies (AIT)--while available, are in various stages of 
maturity and more operational experience would be required to determine 
whether they can be effectively implemented in a rail environment.\20\ 
For example, AIT technologies have the ability to detect hidden 
objects; however, they are walk-through devices that would require rail 
passengers to be funneled through the equipment, limiting passenger 
throughput with long screening times. Standoff technology can be used 
to detect hidden objects on an individual from a significant distance 
and is attractive because it may have less effect on passenger 
throughput than other new technologies. However, certain types of 
standoff systems, as well as AIT technologies raise privacy concerns 
because they create images of individuals underneath their clothing.
---------------------------------------------------------------------------
    \18\ GAO-10-898.
    \19\ DHS considers certain details regarding the ability of 
particular technologies to detect explosives and any limitations in 
their ability to detect certain types of explosives to be Sensitive 
Security Information or classified.
    \20\ ETP are used in screening for access to buildings. The 
operation of these systems generally involves a screener directing an 
individual to the ETP and the ETP sensing his presence and, when ready, 
instructing the individual to enter. The portal then blows short puffs 
of air onto the individual being screened to help displace particles 
and attempts to collect these particles with a vacuum system. The 
particle sample is then preconcentrated and fed into the detector for 
analysis. Standoff detection systems allow for the screening of rail 
passengers from a distance. When applied to passenger rail, their 
distinguishing feature is they attempt to screen passengers with 
minimal to no effect on normal passenger flow. There is no standard 
definition of standoff detection and separation distances can be less 
than a meter to tens of meters and beyond. AIT portals are used for 
screening people for building access and, to an increasing extent, 
airport access. The AIT portal then takes images of the individual, 
which are displayed to another officer who inspects the images. The 
inspecting officer views the image to determine if there are threats 
present.
---------------------------------------------------------------------------
    In our July 2010 report, we did not make any recommendations 
regarding the explosives detection technologies available or in 
development that could help secure passenger rail systems, but we 
raised various policy considerations. Among other things, we noted that 
securing passenger rail involves multiple security measures, with 
explosives detection technologies just one of several components that 
policymakers can consider as part of the overall security environment. 
In determining whether and how to implement these technologies, federal 
agencies and rail operators will likely be confronted with challenges 
related to the costs versus the benefits of a given technology and the 
potential privacy and legal implications of using explosives detection 
technologies.
TSA Has Not Issued Rail Security Training Regulations but Has Provided 
        Funding and Guidance for Training
    In 2007, TSA officials identified the need for increased security 
training at mass transit and passenger rail systems because the extent 
of training provided varied greatly--with a majority providing an 
introductory level of safety and security training for new hires, but 
not refresher training. In addition, TSA identified security awareness 
training and a lack of a robust, standardized corporate security 
planning for freight railroads as systematic security gaps. The 9/11 
Commission Act mandates TSA to develop and issue regulations for a 
public transportation security training program and for a railroad 
security training program.\21\ In June 2009, we reported that TSA had 
not implemented this requirement or several others related to mass 
transit and passenger rail security, and recommended that DHS develop a 
plan with milestones for doing so.\22\ DHS concurred with this 
recommendation, and in June 2011, TSA stated that it had developed a 
plan and milestones for addressing uncompleted 9/11 Commission Act 
requirements. TSA also stated that it is finalizing the security 
training program regulations and expects to issue a Notice of Proposed 
Rulemaking for public comment by November 2011.\23\ A TSA official 
indicated that the delay was due, in part, to difficulties incurred in 
trying to address multiple modes of transportation in one regulation.
---------------------------------------------------------------------------
    \21\ Pub. L. No. 110-53,  1408, 1517, 121 Stat. 266, 409, 439 
(2007).
    \22\ GAO-09-678.
    \23\ Despite the absence of the TSA security training regulations 
required by the 9/11 Commission Act, railroad organizations are subject 
to established regulations such as the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) security training regulations for hazmat 
(hazardous materials) employees. Among other things, the PHMSA security 
regulations require that hazmat employee training provide an awareness 
of security risks associated with hazardous materials transportation 
and methods designed to enhance transportation security. The training 
must also include a component covering how to recognize and respond to 
possible security threats. 49 C.F.R.  172.704. In addition, FRA 
regulations require railroads that operate or provide intercity or 
commuter passenger train service or that host the operation of that 
service to adopt and comply with a written emergency preparedness plan, 
which must provide for employee training as well as training of, and 
coordination with, emergency responders. 49 C.F.R.  239.101.
---------------------------------------------------------------------------
    To address identified training deficiencies, TSA supports security 
training through its TSGP and voluntary security awareness programs. 
TSA established a Mass Transit Security Training program in 2007 to 
provide curriculum guidelines for basic and follow-on security training 
areas and makes funding available through TSGP.\24\ For example, TSA 
offers mass transit and passenger rail agencies the option of using 
grant funding to cover costs for training to employees that is supplied 
by either: (1) training providers that are federally funded or 
sponsored or (2) other training providers.\25\ However, in June 2009 we 
reported that opportunities exist for TSA to strengthen its process for 
ensuring consistency in the performance of nonfederal training vendors 
that mass transit and passenger rail agencies use to obtain training 
through the program.\26\ We recommended that to better ensure that DHS 
consistently funds sound and valid security training delivery programs 
for mass transit and passenger rail employees, TSA should consider 
enhancing its criteria for evaluating whether security training vendors 
meet the performance standards of federally sponsored training 
providers and whether the non-federally sponsored providers could be 
used by transit agencies for training under the transit security grant 
program. DHS concurred with the recommendation, noting that TSA would 
work with the FTA through an existing joint working group to develop 
criteria for reviewing new vendor-provided training courses. In 
February 2010, TSA stated that it had proposed a joint task group with 
the FTA to define evaluation criteria for courses submitted by mass 
transit or passenger rail agencies, academic institutions, or other 
entities. In June 2011, TSA stated that the joint task group--which is 
being led by TSA and will include members from the FTA and industry--is 
in the process of organizing its first meeting. According to TSA, the 
group will use the criteria it develops to evaluate vendor training 
courses by the fall of 2011.
---------------------------------------------------------------------------
    \24\ DHS also established the Freight Rail Security Grant Program 
(FRSGP), which provides funds for training programs, among other 
things.
    \25\ For 2011, the TSGP prioritizes employee training, drills and 
exercises, public awareness, and security planning. Among other things, 
Fiscal Year 2011 funds may be used for training activities including 
workshops and conferences and employing contractors to support training 
related activities.
    \26\ GAO-09-678.
---------------------------------------------------------------------------
    DHS, DOT, and others have also taken steps to enhance rail and 
transit security awareness in partnership with the public and private 
entities that own and operate the Nation's transit and rail systems 
through voluntary security awareness programs. For example, the Transit 
Watch Program, co-led by TSA and the FTA, provides a nationwide safety 
and security awareness program designed to encourage the active 
participation of transit passengers and employees. By means of this 
program, the federal government, in collaboration with industry, 
created templates for transit agencies to develop or enhance their own 
public awareness programs. In July 2010, DHS launched the ``If You See 
Something, Say Something,'' campaign as a way to raise public and 
frontline employee awareness of indicators of terrorism, crime, and 
other threats and emphasize the importance of reporting suspicious 
activity to the proper transportation and law enforcement 
authorities.\27\
---------------------------------------------------------------------------
    \27\ The security program was funded, in part, by $13 million from 
the TSGP and was originally implemented by the New York Metropolitan 
Transportation Authority.
---------------------------------------------------------------------------
Opportunities Exist to Streamline Security Information for Transit 
        Agencies, and Preliminary Results Indicate Some Freight Rail 
        Agencies Do Not Receive Actionable Information and Analysis 
        from TSA
    While TSA is taking steps to improve information sharing with 
freight and passenger rail stakeholders, potential overlap could 
complicate stakeholder efforts to discern relevant information and take 
appropriate actions to enhance security. In September 2010, we 
identified the potential for overlap among three federal information-
sharing mechanisms: the public transit portal on the Homeland Security 
Information Network (HSIN-PT), TSA Office of Intelligence's page on 
HSIN, and the Public Transit Information Sharing and Analysis Center 
(PT-ISAC).\28\ Each of these receives funding from DHS to share 
security threats and other types of security-related information with 
public transit agencies. We recommended that DHS establish time frames 
for a working group of federal and industry officials to assess 
opportunities to streamline information-sharing mechanisms to reduce 
any unneeded overlap. DHS concurred with this recommendation.
---------------------------------------------------------------------------
    \28\ GAO, Public Transit Security Information Sharing: DHS Could 
Improve Information Sharing through Streamlining and Increased 
Outreach, GAO-10-895 (Washington, D.C.: Sept. 2010).
---------------------------------------------------------------------------
    In response to our recommendation, DHS and the rail industry have 
taken steps to streamline the information distributed to stakeholders. 
TSA and key industry groups have developed the Transit and Rail 
Intelligence Awareness Daily (TRIAD) Report and associated 
Transportation Information Library. The overall intent of TRIAD is to 
streamline the analysis, sharing, and exchange of intelligence and 
security information that had been disseminated by multiple sources. 
TRIAD includes a daily publication to enhance situational awareness, an 
alert message to provide immediate awareness of a developing threat or 
incident, and a catalogue of supporting reports and related documents. 
According to TSA and its industry partners, HSIN-PT will supplement 
TRIAD by serving as a reference source to house cross-sector best 
practices, additional intelligence, and threat information as well as 
transit security standards and all-hazards information. The TSA Office 
of Intelligence stated that it will continue to have a portal on HSIN 
that supplements the information on the PT-ISAC and HSIN-PT. While the 
TRIAD report may reduce the number of security-related e-mails that 
transit agencies receive, it does not reduce overlap among the three 
information-sharing mechanisms. In June 2011, TSA officials stated that 
they are continuing to coordinate with other members of the working 
group to identify actions and time frames for addressing our 
recommendation.
    Our recent work indicates that some rail stakeholders do not 
receive security information from TSA. In September 2010, we reported 
that less than half of public transit agencies (34 of 77) responding to 
our 2010 survey reported that they had log-in access to HSIN, TSA's 
primary mechanism for sharing open-source security-related information 
with transportation stakeholders, and had not lost or forgotten their 
log-in information.\29\ Our survey also identified that, of the 19 
transit agencies that did not have HSIN access, 12 had never heard of 
the mechanism, and an additional 11 agencies did not know whether they 
had access to HSIN. We recommended that TSA establish timeframe for the 
transit-sector public-private working group to conduct targeted 
outreach efforts to increase awareness of HSIN among agencies that are 
not currently using or aware of this system. DHS officials concurred 
with this recommendation and in January 2011 provided an implementation 
plan with target dates for addressing it. However, the plan was 
insufficiently detailed for us to determine whether it fully addresses 
the recommendation. For example, the plan stated that TSA officials 
created a consolidated ``superlist'' of current PT-ISAC and HSIN-PT 
members and transit agencies on a TSA distribution list and intend to 
encourage all entities on this superlist to join the PT-ISAC and HSIN-
PT. However, the plan did not indicate how TSA would target its 
outreach efforts to those entities not already on one of those lists. 
In June 2011, a TSA official stated that the public-private working 
group plans to reach out to other transit entities, such as small 
agencies, to encourage them to join the PT-ISAC and HSIN-PT. As noted 
above, TSA officials stated that they are continuing to coordinate with 
other members of the working group to identify actions and time frames 
for addressing our recommendation.
---------------------------------------------------------------------------
    \29\ GAO-10-895.
---------------------------------------------------------------------------
    Preliminary observations from our ongoing work also indicate that 
some freight rail stakeholders would prefer to receive more analysis or 
actionable security information from TSA. The federal government's 
National Strategy for Information Sharing discusses the need to improve 
the two-way sharing of terrorism-related information on incidents, 
threats, consequences, and vulnerabilities, including enhancing the 
quantity and quality of specific, timely, and actionable information 
provided by the federal government to critical infrastructure sectors. 
According to three Class I rail stakeholders that we interviewed, TSA 
distributes information on rail security that is generally used for 
situational awareness. However, rail security stakeholders from three 
of the seven Class I railroads that we surveyed indicated that TSA's 
security information products lack analysis, such as trend analysis, 
that could help predict how certain events may affect freight rail. In 
follow-up interviews, security officials at three Class I railroads 
stated that security information provided by TSA does not offer 
actionable information that could allow them to develop or adjust their 
current countermeasures against potential terrorist threats. These 
security officials added that they have often received the same 
information that TSA provides from the media or other sources before it 
is distributed from TSA. For example, two of these officials told us 
that they received little or no security-related information from TSA 
in the aftermath of Osama bin Laden's death. However, security 
officials at two of the three rail carriers that we interviewed stated 
that they felt confident that someone from the federal government would 
alert them of any direct threat to that carrier. TSA officials agree 
that improvements are needed in the products and mechanisms by which 
they alert rail agencies of security-related information and 
intelligence. For example, a TSA official stated in June 2011 that the 
agency is in the process of revising its reports on suspicious 
incidents to regionalize the information provided to rail carriers, in 
response to feedback from those carriers. We will continue to assess 
TSA's efforts related to security information-sharing and will report 
the final results later this year.
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, this completes my prepared statement. I look forward to 
responding to any questions you may have.
Related GAO Products
    Public Transit Security Information Sharing: DHS Could Improve 
Information Sharing through Streamlining and Increased Outreach. GAO-
10-895. Washington, D.C.: September 22, 2010.
    Technology Assessment: Explosives Detection Technologies to Protect 
Passenger Rail. GAO-10-898. Washington, D.C.: July 28, 2010.
    Surface Transportation Security: TSA Has Taken Actions to Manage 
Risk, Improve Coordination, and Measure Performance, but Additional 
Actions Would Enhance Its Efforts. GAO-10-650T. Washington, D.C.: April 
21, 2010.
    Transportation Security: Key Actions Have Been Taken to Enhance 
Mass Transit and Passenger Rail Security, but Opportunities Exist to 
Strengthen Federal Strategy and Programs. GAO-09-678. Washington, D.C.: 
June 24, 2009.
    Transit Security Grant Program: DHS Allocates Grants Based on Risk, 
but Its Risk Methodology, Management Controls, and Grant Oversight Can 
Be Strengthened. GAO-09-491. Washington, D.C.: June 8, 2009.
    Freight Rail Security: Actions Have Been Taken to Enhance Security, 
but the Federal Strategy Can Be Strengthened and Security Efforts 
Better Monitored. GAO-09-243. Washington, D.C.: April 21, 2009.
    Transportation Security: Comprehensive Risk Assessments and 
Stronger Internal Controls Needed to Help Inform TSA Resource 
Allocation. GAO-09-492. Washington, D.C.: March 27, 2009.

    Senator Lautenberg. Thank you very much, Mr. Lord.
    Now we'll hear from Chief O'Connor, please.

           STATEMENT OF JOHN O'CONNOR, VICE PRESIDENT

         AND CHIEF OF POLICE, AMTRAK POLICE DEPARTMENT,

            NATIONAL RAILROAD PASSENGER CORPORATION

    Mr. O'Connor. Thank you, Mr. Chairman, Ranking Member 
Hutchison, Senator Udall, Senator Wicker.
    My testimony today is in response to the emerging threat to 
rail in this country that was recently highlighted by 
information obtained from the Osama bin Laden compound. During 
a prior appearance before this committee, I testified that the 
threat against rail was very real, and I described the manner 
in which Amtrak had responded by focusing on threats related to 
improvised explosive devices in stations, on board a train, or 
by an active shooter scenario.
    The recent events after the death of bin Laden serve as a 
stark reminder that these threats continue to be viable and 
that a new twist was added, that terrorists are considering 
derailing trains. This is of particular concern to Amtrak, who 
operates high-speed rail trains where catastrophic losses could 
occur. This begs the question: Are we doing enough to detect 
and deter terrorist acts on surface transportation, and can we 
do more to prevent a terrorist rail tragedy from happening?
    Upon receipt of the intelligence information from the UBL 
compound, a meeting was held with TSA officials to discuss what 
was uncovered and to evaluate how to proceed regarding the 
threats to the right-of-way and the derailment of trains. 
Amtrak also collaborated with other Federal, state and local 
agencies and initiated a response that addressed right-of-way 
threats.
    These steps included increasing right-of-way patrols, 
focusing on bridge and tunnel infrastructure; shifting the 
strategy of Operation RAIL SAFE, or ``Regional Alliance 
Including Local, State and Federal Efforts,'' to include right-
of-way patrols; requesting law enforcement air and marine 
support for critical infrastructure; ensuring current capital 
security planning included right-of-way risk assessments; 
deploying Special Operations personnel to the right-of-way and 
coordinating with other Amtrak departments; last, alerting 
employees and reinforcing security programs and vigilance 
messages.
    While Amtrak was undertaking these counter-measures, it 
still remained committed to existing programs such as our 
Explosive Canine Detection Program. We currently have 46 
explosive teams that last year did more than 11,000 train rides 
and 25 weekly surges across the nation.
    Our Security Inspection Program. We conducted more than 
3,000 random passenger baggage screening operations.
    Active Shooter Training. All APD sworn personnel have been 
trained in active shooter training, and we also trained more 
than 45 agencies in SWAT tactics in responding to the rail 
environment.
    Corporate security. Amtrak has leveraged grant funding to 
improve protection for passengers, employees, and critical 
infrastructure, including CCTV, fencing and other security 
improvements, mostly with grant funding from the TSA.
    Amtrak continues to work closely with the TSA. We've 
conducted more than 800 VIPR programs, the Visual Intermodal 
Protection and Response deployments. We've also conducted joint 
screening operations, continued improvement of security efforts 
through the Suspicious Activity Reporting Program and the 
Baseline Assessment Security Enhancement program.
    In the Northeast Corridor, we continue to work with major 
law enforcement and DHS officials from the Northeast Corridor 
in a collaborative way to enhance public safety on surface 
transportation. I mentioned RAIL SAFE before. This effort is a 
grassroots effort that has now included hundreds of agencies 
across the country helping to protect rail. Our last major 
operation on May 19, where more than 155 U.S. agencies, as well 
as several Canadian agencies, across 34 states and more than 
1,000 law enforcement personnel deployed to over 200 rail 
stations.
    A key to our security is front-line employee training. 
Amtrak has been active in providing security training for 
front-line employees, and in 2011, 8,300 front-line 
transportation employees are receiving classroom training by 
way of an interactive simulated course, including an active 
shooter situation.
    Technology is also a big part of our efforts.
    In conclusion, we are very concerned about the recent 
events, and we will continue to work with the federal 
government to do all that we can to protect America's rails.
    We will work with DHS, TSA, and the Committee to identify 
funding sources for additional front-line employee training and 
advanced technology to address these threats.
    The security of our system is our top priority, and I look 
forward to working with the Committee in the coming months to 
make sure that we have the people, the training, technology, 
and the intelligence we need to keep our system safe and 
secure. Thank you.
    [The prepared statement of Mr. O'Connor follows:]

   Prepared Statement of John O'Connor, Vice President and Chief of 
     Police, Amtrak Police Department, National Railroad Passenger 
                              Corporation
    Good morning, Mr. Chairman, and thank you very much for the 
opportunity to testify. My name is John O'Connor, and I am currently 
Vice President and Chief of the Amtrak Police Department (APD). The 
Department's strength is more than 500 sworn and civilian personnel at 
more than 30 locations spread across the 46 states in which Amtrak 
operates the passenger rail system. I speak to you as someone who has 
more than 38 years police experience in the passenger rail and mass 
transit environment. My testimony today is in response to the emerging 
threat to rail in this country that was recently highlighted by 
information obtained from the UBL compound.
    During a prior appearance before this Committee, I testified that 
the threat against rail was very real and I described the manner in 
which Amtrak had responded by focusing on threats related to the use of 
IEDs in a station or on a train or by an active shooter scenario. The 
recent events after the death of bin Laden serve as a stark reminder 
that these threats continue to be viable and that a new twist was 
added--that terrorists are considering derailing trains. This is of 
particular concern to Amtrak who operates high speed rail trains where 
catastrophic losses could occur. This begs the question--are we doing 
enough to detect and deter terrorist acts on surface transportation, 
and can we do more to try to prevent a terrorist rail tragedy from 
happening?
    Upon receipt of the intelligence information from the UBL compound, 
a meeting was held with TSA officials where discussion took place 
regarding what was uncovered, and evaluated how to proceed and address 
threats regarding the right of way and derailment of trains. Amtrak 
also collaborated with other Federal, state and local agencies and 
initiated a response that addressed right of way threats. These steps 
included:

  <bullet> Increasing right of way patrols focusing on bridge and 
        tunnel infrastructure and to report such checks.

  <bullet> Shifting Operation Regional Alliance Including Local, State 
        and Federal Efforts (RAIL SAFE) strategy to include right of 
        way patrols.

  <bullet> Requesting law enforcement air and marine support for 
        critical infrastructure and right of way patrols when possible.

  <bullet> Reviewing our current Capital Security Plan to ensure our 
        right of way risks are being adequately addressed.

  <bullet> Deploying special operations personnel to right of way 
        coverage in conjunction with uniform patrol.

  <bullet> Coordinating with other Amtrak departments (Engineering, and 
        Mechanical) to ensure employee reporting of unusual occurrences 
        and to ensure gates are locked, buildings secured, liaison with 
        bridge tenders etc.

  <bullet> Alerting employees and reinforcing security programs and 
        vigilance messages.

    While Amtrak was undertaking these new countermeasures, it still 
remained committed to existing programs, such as:
Explosive Canine Detection Program
    Amtrak now has 47 bomb-detecting canine teams. Included in this 
group are specially trained ``vapor wake'' canine teams that can 
actually detect the presence of fumes left after someone passes through 
with an explosive device. Amtrak has moved to the forefront of the 
field with use of this unique canine application and continues to work 
to build this counter-terror capability and has about one third of the 
canine teams vapor wake trained. In Fiscal Year 2010, Amtrak canine 
teams performed over 11,000 train rides in protection of the traveling 
public. These activities were in addition to the 34,000 train rides and 
over a 100,000 gate/platform checks performed by APD patrol officers. 
Canine teams also conducted 25 coordinated surge operations where 
groups of bomb-detecting canine teams unpredictably appeared at various 
locations throughout the entire Amtrak system to show increased 
security and a law enforcement presence.
Security Inspection Program
    In 2008, Amtrak began a random baggage screening program similar to 
one pioneered by the NYPD. Using technology, screening teams deploy in 
an unpredictable fashion designed to make it harder for a terrorist to 
predict the level of security. In 2010, APD's Special Operations Unit 
performed over 3,000 passenger baggage screening operations in which 
thousands of trains were screened, resulting in tens of thousands of 
passengers being randomly selected for screening. Through an American 
Recovery and Reinvestment Act/Transportation Security Grant program 
(ARRA/TSGP) Amtrak expanded this screening program by adding two 
additional screening teams in the Northeast Corridor.
Active Shooter Training
    The APD has performed SWAT-type training in the rail environment 
with over 45 agencies since 2008 and has expanded the program to 
include a Passenger Rail Tactical Training component in order to 
increase state and local law enforcement personnel's awareness and 
ability to respond and deploy in a rail station or on a passenger rail 
train car and in extremis responses.
    All APD sworn personnel are receiving training on active shooter 
type incidents.
Corporate Security
    Amtrak has leveraged the Transit Security Grant and American 
Recovery and Reinvestment Act (ARRA) grant programs to improve 
protection for passengers, employees, and critical infrastructure.
    We will never stop assessing Amtrak's vulnerabilities. Many of the 
projects have built upon earlier risk assessments performed for Amtrak 
and will be closely focused on addressing these individual 
vulnerabilities. Use of grant funds to install fences, closed circuit 
TV and other security improvements is directly tied to Amtrak's 
commitment to let our risk assessments drive security investment.
    The security program is managed in part by Station Action Team 
personnel. They work closely with the Operations Department to ensure 
Amtrak security and emergency response policies are followed and 
coordinated as part of a larger risk reduction strategy that 
incorporates recovery, continuity of operations processes and drills 
and exercises. These Station Action Teams along with Regional Security 
Coordinating Committees have involved our station staffs in the 
security planning process. This integration has improved coordination 
and raised employee awareness of potential security threats.
Collaboration with TSA
    Amtrak has had a very good relationship with TSA and appreciates 
the support and assistance it has received over the years from this 
agency.
    Since 2007, Amtrak and TSA started joint deployments with TSA's 
``Visible Intermodal Protection and Response'' (VIPR) team program, 
which was developed to augment the integral security operations of 
various transportation modes, such as the Amtrak Police or transit 
security. These provide a visible uniformed presence and can help 
dedicated law enforcement to deter or detect suspicious activity, and 
they provide the traveling public with a reassuring police presence. 
These operations have basically involved the unannounced ``surge'' of 
TSA personnel onto Amtrak trains and stations at various points, and 
are designed to test the ability of TSA to flex support to surface 
transportation. A total of 858 VIPR operations have been held since 
inception.
    Amtrak leveraged the success of VIPR operations in 2009 and 
collaborated with TSA to expand their presence by conducting joint 
passenger screening operations, using additional TSA assets, including 
Bomb Appraisal Officers, Behavior Screening Officers and Surface 
Transportation Security Inspectors to augment Amtrak screening forces.
    We have continued to positively develop this relationship by 
coordinating the Suspicious Activity Reporting Program (SAR) to help 
identify potential emerging terrorist trends or activities and are 
presently going through the Baseline Assessment for Security 
Enhancement (BASE) process with TSA Surface Transportation Inspection 
Officials.
Northeast Corridor (NEC) Coalition
    Amtrak continues to work with major law enforcement and DHS 
officials from Delaware, New Jersey, New York, Maryland, Pennsylvania, 
and Washington, D.C. to work in a collaborative way to enhance public 
safety on surface transportation, particularly for communities on 
Amtrak's NEC. A meeting was held at the request of NYPD Commissioner 
Kelly to coordinate and reinforce efforts to protect the public using 
surface transportation after notification of intelligence information 
received from the UBL raid.
Operation RAIL SAFE (Regional Alliance Including Local, State and 
        Federal 
        Efforts)
    This program, developed in partnership with Amtrak, NYPD and TSA, 
involves the coordinated efforts of multiple jurisdictions to heighten 
station patrols, increase police presence on trains, by deploying 
assets in both uniform and undercover capacity. These operations allow 
for Federal, state and local agencies to exercise counter-terrorism and 
incident response capabilities.
    For example, on May 19, 2011, a RAILSAFE Operation was conducted 
that involved 155 agencies, 34 states, including Washington, D.C., 
Canadian cities Vancouver and Montreal and 1,035 law enforcement 
personnel at 204 stations (107 Amtrak). This was aligned in Europe 
through RAILPOL with their 24 BLUE European Rail Operation.
Front-line Employee Training
    Amtrak has been actively focusing on providing security training to 
our frontline employees recognizing that they are the eyes and ears of 
the railroad.
    Amtrak employees will continue to be a key piece of our security 
strategy. They are valuable sources of information that can ``cue'' the 
law enforcement system. Amtrak benefits from the services and 
operational knowledge of upwards of 19,000 people who work on the 
railroad. They are reminded daily of the importance of their diligence 
and alertness to suspicious activity, how to recognize suspicious 
activity and who to report to by way of Daily Crime tips. An Employee 
Security Handbook and Employee Security Updates are additional 
resources that outline awareness information.
    In 2007, approximately 14,000 frontline employees received 
classroom training.
    In 2009, refresh classroom security training which included 
civilian version of BASS training was provided to 7,700 Transportation 
frontline employees. During this year, 2011, about 8,300 frontline 
Transportation employees are receiving classroom training by way of an 
interactive simulated course. Along with refresh training on 
recognizing and reporting suspicious activity, the 2011 training 
includes a first-time presented scenario on an active shooter incident.
    An updated strategic Employee Security Training Plan is being 
developed which will outline the way forward for security training for 
all employees, to include a robust multi-year exercise program against 
a broad spectrum of threats.
Technology
    Amtrak has a range of mitigation strategies and solutions in place 
and planned for the future. Various types of remediation are 
implemented based upon risk and vulnerability assessments and best 
practices. Amtrak has focused on a range of strategies including target 
hardening (high security fencing, bollards, blast curtain/Mylar 
protection, access control, etc.) and has most recently implemented 
more technologically driven initiatives. These initiatives have 
historically been applied to stations, bridges and tunnels however, in 
light of recent events, Amtrak is exploring expanding these strategies 
to include right-of-way protection.
    Amtrak used the following technologies to prevent, detect and deter 
terrorist acts:
Blast/Mitigation Studies

  <bullet> Engineering assessments of structural designs of critical 
        infrastructure (bridges, tunnels, stations and facilities)

  <bullet> Focus on chemical, biological, radiological, nuclear, 
        explosives (CBRNE) threats and asymmetric modes of attack

  <bullet> Advanced simulation and modeling techniques to identify 
        exploitable single/multi points of failure and reduce/eliminate 
        the risk of catastrophic consequences, such as loss of life or 
        operational functionality, from an attack
Smart ID Cards (HSPD12--Homeland Security Presidential Directive #12)

  <bullet> Implementation of HSPD12 compatible employee identification 
        cards to reduce unauthorized access to restricted areas

  <bullet> The computer chip on the card can be used for security 
        enhancements (e.g., digital signing of e-mails and data)

  <bullet> Smart ID program has enabled Amtrak to enhance security 
        through identifying and remedying security gaps, and has 
        provided an opportunity to enforce existing access control and 
        employee identification polices
CCTV

  <bullet> Several CCTV systems are in place throughout the rail 
        network

  <bullet> CCTV enhances APD's situational awareness and communication 
        capabilities

  <bullet> Amtrak is looking to augment its CCTV capabilities by 
        utilizing integrated advanced technology (cameras, sensors, 
        fencing, and access control instruments) to protect critical 
        infrastructure

  <bullet> Potential technology will result in an automated state-of-
        the-art remote surveillance and intuitive, user-friendly 3-D 
        Graphical User Interface (GUI)

  <bullet> The systems will be designed using proprietary algorithms 
        and will be ruled based driven to detect anomalies in the 
        camera view
Access Control

  <bullet> Several access control systems are in place throughout the 
        rail network and APD expects to expand upon current solutions 
        as advancements in access control and intrusion detection when 
        they become available
Radiological Pagers

  <bullet> Portable trace detector that can detect explosives, chemical 
        warfare agents, toxic industrial chemicals and can do so in 
        approximately 20 seconds

  <bullet> APD sworn personnel are equipped with radiological pagers 
        while on patrol

    Amtrak is developing the following technologies to improve upon 
existing security strategy and operations, enhance interagency 
information sharing and local agency response to Amtrak incidents:
iCOP--Integrated Communication and Operations Program

  <bullet> GIS based incident and response planning tool to enhance 
        situational awareness

  <bullet> Visually displays integrated data on an interactive multi-
        user touch screen or desktop system including when officers are 
        on patrol near the right of way

  <bullet> Utilizes critical infrastructure, homeland security, law 
        enforcement, and Amtrak data for simulations, modeling, alerts 
        and analysis

  <bullet> Makes crucial data available simultaneously, in real-time, 
        to multiple key decisionmakers to plan appropriate response 
        scenarios and implement operating procedures

  <bullet> Capabilities include train and officer tracking, access to 
        CCTV feeds, response plans, public safety and law enforcement 
        alerts, floor plans, access control integration, etc.

  <bullet> Similar to systems recently launched at the Department of 
        Defense--Knowledge Display and Aggregation System (KDAS) and 
        FEMA--Integrated Situational Awareness Visualization 
        Environment (iSAVE)
ROMAN--Risk Operating Management Analysis Network (Secure Network)

  <bullet> APD's Secure Network is nearing end of development and will 
        provide support for security related technology projects (i.e., 
        iCOP, CCTV, Access Control, etc.)

  <bullet> Robust and redundant network backbone

  <bullet> Provides a platform for secure communications & information 
        sharing

  <bullet> Support CCTV and Video command centers aggregating and 
        displaying internal and external information

  <bullet> Federalized and centrally managed system
Right-of-Way (ROW)

  <bullet> Amtrak is currently working with TSA to examine potential 
        technology based ROW intrusion detection solutions

  <bullet> Solutions would include integrated sensor technology with 
        cameras to monitor for intrusion along the ROW

    In conclusion, we are very concerned about recent events and we 
will continue to work with the federal government to do all that we can 
to protect America's rails. We will work with DHS, TSA and the 
Committee to identify funding sources for additional frontline employee 
training and advanced technology to address threats. The security of 
our system is our top priority, and I look forward to working with the 
Committee in coming months to make sure that we have the people, the 
training, the technology and the intelligence we need to keep our 
system safe and secure.
    I appreciate this opportunity to discuss security at Amtrak and I 
look forward to any questions.

    Senator Lautenberg. Thank you very much.
    I would note now that we're joined by Senator Wicker. 
Senator Wicker is not new to the Surface Transportation 
Subcommittee, but he is now the Ranking Member of this 
subcommittee. I welcome him and I look forward to working with 
him on the Subcommittee.
    What we'll do, Senator Wicker, if you have something very 
short, you can do it now. Otherwise, use the time when the 
questions are----

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. I would prefer the latter. Thank you very 
much, Mr. Chairman.
    Senator Lautenberg. Thank you very much.
    Senator Wicker. I'm glad to be joining you in that position 
on the Subcommittee.
    Senator Lautenberg. We look forward to working with you. We 
know you have a serious interest in rail safety, and we want to 
pursue that interest with you.
    I just got a news report that came out today, and it talks 
about tampering on the rail system in Iowa. It says that on a 
recent Sunday morning, an observant Iowa Interstate Railroad 
crew member on a westbound train spotted something that didn't 
look right at a switch just west of a town called Menlo, and 
they immediately stopped traffic there and were able to deal 
with the problem as they saw it.
    It was designed to be an attack, and it was interrupted by 
the heightened interest of a rail employee, and it was turned 
over to the federal authorities to pursue what was intended 
there and helped us in registering more concern, more interest 
in these kinds of things, even as we talk to them this very 
day.
    So I start by asking Administrator Pistole, the TSA budget 
request continues to designate 98 percent of the funds to 
aviation, and we want that care to continue. But it leaves a 
relatively small percentage of the funds for surface 
transportation security. And as I mentioned in my commentary, 
700 million passengers fly on airlines each year, compared to 
the 10 billion who use public transportation. And news reports 
indicate that al-Qaeda has been plotting an attack on a U.S. 
rail line.
    So how does the TSA budget request reflect our concern and 
our actions against rail system attack, Mr. Pistole?
    Mr. Pistole. Thank you, Mr. Chairman. Obviously, we would 
be very much interested in applying more resources to surface 
transportation and rail transportation, in particular to the 
security aspects. We try to be risk-based and intelligence-
driven in our process of recognizing both al-Qaeda, al-Qaeda in 
the Arabian Peninsula's interest in particular as to aviation, 
and the catastrophic effects as we saw from both the attempted 
bombing on Christmas Day, 2009, and then the cargo plots that 
we saw only cost al-Qaeda $4,200 for those two toner cartridge 
printer devices and the shipping of those two packages. And we 
saw bin Laden's statements about that and al-Qaeda in the 
Arabian Peninsula's statements about the economic impact, and 
recognizing that at least two of bin Laden's fatwas prior to 
his death concerned the economic impact. That's not to say that 
there's not an economic impact if a train is derailed or 
anything along those lines.
    But what we try to do is recognize the exceptional efforts 
of both the Amtrak Police and then those in state and local law 
enforcement and in the rail industry that have taken efforts 
and measures on their own simply in terms of risk mitigation to 
do those things that they know are prudent in terms of whether 
it is the additional police officers or canines, such as what 
Chief O'Connor testified to; whether it is augmenting with 
transportation security grant funds, which I mentioned, that we 
try to do in terms of operational deterrence; training; and 
then other things such as the VIPR programs that we mentioned.
    So we try to do all those things, recognizing that we can't 
be all places, all people, all times. So how can we leverage 
federal government resources with state and local and Amtrak to 
provide the best possible security posture?
    Senator Lautenberg. Well, the question is, as raised 
further, in the past year law enforcement has uncovered plots 
against both the New York City subway and the D.C. Metro, and 
yet what the House sent over, recommends funding that's 
carelessly established to support the public transportation 
security grants by 55 percent below this year's recommended 
levels.
    Now, what would an impact like that do to transportation 
security grants that we have to have for the safety and 
security of the traveling public?
    Mr. Pistole. Mr. Chairman, it would have a serious and 
significant impact if that were to go forward in several areas. 
One would be the training, which we would be unable to do. For 
example, we recently had a conference call with the chiefs of 
police from many of the metro police departments. We call it 
the Policy Advisory Group, including Chief O'Connor. And one of 
the things they requested as a result of the bin Laden raid was 
some video training, basically a videotape that could be 
provided, that we could produce and provide to, for example, 
the engineers, those who work on the lines, that deals with 
sabotage, and particularly what can be done in terms of trying 
to take preventive steps to prevent sabotage; and in the event 
there is, then what steps can be taken to avoid the impact of 
that. So that would be one area.
    The operational deterrence, another area. The critical 
infrastructure would be another area. As you know, some of the 
PATH, the Port Authority Trans-Hudson lines between New Jersey 
and New York have some issues that we have talked about 
previously. Some of that funding may adversely affect some of 
the continued risk mitigation efforts being done in those 
areas. And then there may be reduced funding for, for example, 
the operational efforts that Amtrak and others would have with 
additional canine teams or uniformed officers that can do the 
random, unpredictable patrols.
    Senator Lautenberg. Yes. I'm extending the time that I have 
for asking questions. I'm going to come back to you, Mr. 
Pistole, because what I hear you saying is that there are many 
things that we could do, and the question is what is missing 
from the application of these ideas that leaves us with more 
risk than I think we ought to be accepting.
    With that, I ask Senator Hutchison to take----
    Senator Hutchison. Well, thank you.
    We understand the stretch that you have across all the 
transportation modes. So I'm not going to rail on you about how 
much of your budget you are allocating to rail, but I am going 
to rail on you to this extent. And that is what, for instance, 
are you doing about hiring the inspectors that you do have in 
this area with some mass transit or rail experience which had 
not been done as of April of 2010 when we had a hearing like 
this?
    Second, what about the 400 FRA inspectors? They're doing 
safety, but what about adding security to their portfolio and 
coordinating with the Federal Rail Administration?
    And last, I would just ask this of you, Mr. Pistole. What 
is the association and cooperation between TSA and DOT? How 
would you rate that, and can you do more with what you have 
that would help this situation?
    And I'm glad you all mentioned about Osama bin Laden's 
information on his computers that we found, because clearly 
they saw that there was a void of interest in this area, so now 
we are forewarned.
    Mr. Pistole. Thank you, Senator. In terms of your first 
question on the transportation security inspectors, obviously 
we are looking for the best qualified, and I think there are 
things we can do and are doing to always recruit and then 
retain those with exceptional backgrounds and experience. And 
so there's more we can do in terms of specializing, I think to 
your point, that will address some of those issues that perhaps 
have been raised in the past. I wasn't present for that April 
2010 hearing, but I understand some of the issues that were 
raised.
    Senator Hutchison. But do you think we are doing that?
    Mr. Pistole. I think we are, but we can do more, yes.
    On your second point in terms of the FRA, the 400 
inspectors, I'll take that back. I don't see any reason why we 
can't add that training that we are providing, whether it is 
for Amtrak or other rail, passenger and freight rail providers, 
to add the security aspect to their safety issues. But I'll 
take that back and look at that.
    And then on the last issue, I didn't write that one down. I 
apologize.
    Senator Hutchison. The cooperation----
    Mr. Pistole. Oh, yes, with the DOT, right. I think it's 
good. Secretary Napolitano and Chief O'Connor and I had a 
meeting with Secretary LaHood, last month I guess it was, to 
talk about some of the issues involving particularly passenger 
rail. I think there are a lot of things that we are doing well. 
I think we could probably streamline and leverage some of those 
relationships in a more effective way, so that's something I'm 
interested in looking at, basically to get the best return on 
our U.S. taxpayers' investment in freight and passenger rail 
security.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks.
    Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service and for your 
testimony. Let me ask you about the incident that happened 
yesterday here in the Washington area, and I would reference a 
story in the Washington Post. It has been on the television and 
radio also in the last 24 hours.
    A 51-year-old McLean woman is being held at an undisclosed 
mental health facility after she allegedly made bomb threats on 
a Red Line train Monday morning. Passengers fled the train. 
Some riders evacuated on the track bed, according to eye-
witnesses. The Rockville station was closed for about 2 hours 
while K9 units searched. No explosives were found, and 
apparently this woman was more of an emotional case than a 
terrorist threat.
    But she reportedly got down on her knees, said you killed 
my family, now I'm going to kill you all, and a melee ensued. 
Passengers pressed the call button, one rider called the 
transit police, and a number of people just jumped off and ran 
at a place that was not a station. Panicked passengers used 
emergency release levers to open train doors manually, jumped 
on the track and began walking toward the nearest station.
    Have any of you looked at this? Do you have an opinion 
about what worked well and what didn't work well, and can the 
Committee learn any lessons from the incident that occurred 
yesterday?
    Mr. O'Connor. Senator, I am familiar with the incident. I 
haven't seen the official reports, but what is described there 
does not surprise me. In a previous career, my department dealt 
with an incident with a gunman on board a train, Colin Ferguson 
on the Long Island Rail Road back in 1993, who actually killed 
the husband of a Member of Congress. And the response by the 
passengers on board the train was certainly very similar to 
what you're describing now.
    It appears that the woman was very credible, very 
believable, and those people truly believed that their lives 
were imminently in danger, and they took what action they 
thought was literally going to save their lives.
    One of the things we do at Amtrak is actually try to teach 
passengers evacuation plans, both in the stations and on board 
the trains. I think probably all agencies should take a look at 
their programs and see whether or not we need to reinforce that 
and put additional training out there for the passengers. In 
today's world we have active shooter situations, we have 
situations that require rapid responses on the part of the 
public, and they need to be part of the solution, and we need 
to provide the training for them.
    Senator Wicker. Mr. Lord?
    Mr. Lord. Yes, I would agree with Mr. O'Connor. I think the 
entire incident underscores the importance of providing 
additional training on emergency response and evacuation 
procedures. A lot of the time and attention is focused on 
deterring an attack, preventing an attack. But once an attack 
happens or it appears imminent, I think there needs to be 
increased focus in that area. In my statement today, that was 
one of the issues we highlighted, the TSA's efforts to 
introduce new regulations that would set up programs for the 
training of front-line rail employees. We think that's 
important, because the program requirements stipulate various 
requirements, one of which is training and evacuation 
procedures.
    Senator Wicker. Do either of you have an opinion as to what 
would have been the best response of alarmed passengers at this 
incident? Did they endanger themselves? Did they risk 
electrocution by jumping off at that particular spot?
    Mr. O'Connor. They did, yes.
    Senator Wicker. What would you have liked for them to have 
done?
    Mr. O'Connor. It would have been preferable if they could 
escape to the platform if that were possible. But when there's 
a mad dash to the door, sometimes that's not possible. Clearly, 
in a panic situation like that, you want to try to do whatever 
you can to quell the panic and direct people to a safe 
evacuation.
    Senator Wicker. Well, thank you. I think I'll take another 
round later on, Mr. Chairman. Appreciate that.
    Senator Lautenberg. Senator Boozman, welcome. And please 
take your opportunity to ask any questions that you have.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Pistole, I'd like to follow up just a little bit on 
what Senator Hutchison asked in terms of the responsibilities 
of TSA versus others. I know there has been some statements 
that TSA has stated that they're not the lead and it's others' 
responsibility. We all understand that. Are we clear on those 
lines of who does what?
    And then the other thing is you mentioned a few minutes ago 
in response to your question that you saw some areas where we 
could do a better job. Could you elaborate on that and perhaps 
tell us a little bit more?
    Mr. Pistole. Sure, Senator. So I think there's clear 
understanding of those in the government and industry in terms 
of TSA's responsibility as it relates to security; and then, 
for example, DOT's responsibilities in the areas of safety, 
similar to what FAA has on the aviation side on safety and TSA 
has for security. So I think there's clear understanding in 
most respects.
    Part of what I was referring to on some of the streamlining 
is just, for example, the training facilities that DOT has. For 
example, there's an outstanding training facility for rail 
safety and security in response to, for example, a freight rail 
with toxic inhalation hazard, a derailment, which is located in 
Pueblo, Colorado. There are other locations. There's one that 
the National Guard runs in Harpers Ferry, West Virginia that 
there may be some efficiencies achieved by doing some things. 
In fact, I'm visiting that with OMB on Friday to look at that.
    So that's one thing on the training side.
    Senator Boozman. Can I ask about that, then? If you 
establish that that were the case, is that something that you 
all could work out, or would you need our help in fixing that, 
or is that an administrative thing?
    Mr. Pistole. No. I think that would be worked out within 
the Administration just to say, OK, here's--the question is are 
we providing services to different audiences? So it's one more 
focus. I visited Pueblo. I have not visited the West Virginia 
one, so I just don't have all that information right now.
    Senator Boozman. OK. Very good.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks, Senator Boozman.
    I want to ask a question of Mr. O'Connor, as well as Mr. 
Lord. One of the primary benefits of rail travel is the ability 
to move easily, efficiently, get on the train, get moving to 
your destination. How is it going to be as efficient, as rapid 
for us to be able to balance the security needs with a more 
detailed review of who is boarding the trains?
    Mr. Lord or Mr. O'Connor, let me ask you first because 
you've got the force out there.
    Mr. O'Connor. Sure, Senator. It's critical that our systems 
remain open and free. It's part of who we are as Americans. 
That being said, there are layers of security that can be 
applied in the transit environment that reduce the 
vulnerability, and we're doing that by training our police 
officers in behavioral assessment, by training our employees in 
how to spot suspicious behavior and activity, and also layering 
in random screening of bags, K9s both in the stations and on 
board the trains, as well as the use of technology, and 
technology is improving all the time, and we're working with 
the TSA on new technology.
    So I think it's important that we keep the system open and 
free but layer in these random, unpredictable security 
activities as to disrupt anybody who might be planning 
something untoward.
    Senator Lautenberg. Mr. Lord, I may be stretching your 
responsibility here, but do we know enough about the systems? 
If you're not familiar with this, please feel free to say so. 
With the systems that are available, the technology that's 
around, how do you apply that to the millions of people who 
daily get on a train in a very short period of time? As the day 
moves across the country, the load stays about the same. You're 
talking about millions of people moving each day. So I'd love 
to have an answer that Mr. O'Connor suggested can be 
applicable, but you do have the time factor on the other side.
    Mr. Lord. Given the multiple access points and open 
architecture of the system, it would be extremely difficult to 
screen all passengers against--I believe you're referring to a 
terrorism watch list, something analogous to what's being done 
on the aviation side of the House.
    Senator Lautenberg. Even more than that. But now we find 
this erratic person who challenged the system just the other 
day. How do you prevent people who would bring harm from being 
able to get into the train, get on the train, and cause the 
mayhem?
    Mr. Pistole, is there anything that you see that wouldn't 
violate the security obligations that we all have here that can 
so rapidly discern problems when you've got millions of people 
moving that would enable you to provide the kind of risk 
aversion that we'd like to see?
    Mr. Pistole. Well, the short answer is, as you know, it's 
very difficult. It's problematic. What we do try to focus on 
are those areas, those points of vulnerability and, as Chief 
O'Connor mentioned, using canines, random unpredictable 
patrols, the undercover officers who may be looking for 
suspicious activity, and then recognizing that, at least from 
the TSA perspective, part of our job is to promote the free 
movement of goods and people with the best possible security. 
So it's a balance between that commerce moving, people moving, 
with security.
    So the idea, and we talked about this last year in your 
office, about trying to do individual screening just does not 
make sense from our perspective on the rails.
    Senator Lautenberg. Yes, and you have to walk away with one 
conclusion that I think is fairly obvious, and that is the 
presence of a security apparatus, including people, has to be 
obvious. They have to know that there are people who are 
watching, whether it's the K9 or their presence. I love seeing 
them. The problem I found out is that the dogs get more tired 
than the officers who are handling them. You've got a problem. 
I see a dog stretched out there, and the poor dog, I want to 
pick him up and give him a little hug and a little water to get 
him going again.
    But the fact of the matter is I think it has to be obvious 
that there is a presence. The TSA has a program, ``See 
Something, Say Something,'' but there have to be reminders that 
there are people who are looking out for our interests, and the 
fact that it's randomized I think has a value of its own. So, 
thanks.
    Senator Wicker?
    Senator Wicker. It is--I would yield to Ms. Klobuchar for 
questions if she has questions.
    Senator Lautenberg. That's very kind of you.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. OK. Thank you very much.
    Senator Lautenberg. I would have had I had the time, too.
    Senator Klobuchar. That's very good. Thank you.
    Senator Lautenberg. Senator Klobuchar.
    Senator Klobuchar. I really appreciate that.
    Thank you, all of you, for being here for this important 
hearing. And thank you, Chair, for having this hearing. I think 
it's incredibly important. We are very focused obviously on air 
safety, but I think as the Chairman knows, we have to always be 
very diligent with our rail system. It's so critical with goods 
and the flow of people across our nation, and an attack could 
cause not only high casualties but also severe disruption to 
interstate commerce. So I appreciate hearing from you on this 
today.
    I have a question. First of all, I used to be a prosecutor, 
Director Pistole, so I'm very focused on coordination with 
local law enforcement. And I know you discussed several of the 
initiatives that TSA has undertaken to streamline coordination 
with local law enforcement. And could you expand on that and 
discuss them more in detail? And to what extent does TSA not 
just direct local law enforcement but also integrate their 
expertise into its own oversight and assistance programs?
    Mr. Pistole. Thank you, Senator Klobuchar. I would describe 
it in three ways. One is on information sharing. What can we 
provide on a timely basis to state and local law enforcement, 
and obviously rail security police, such as we did on Monday, 
the day literally within 12 hours of President Obama's 
announcement about the killing of bin Laden? And so we convened 
a conference call with all the major stakeholders in local law 
enforcement and the Metro police, transit police, to say here's 
what happened, be aware of possible retaliatory actions that 
may take place, no specific intelligence about that. And then 
on Wednesday of that week, when we received the information 
about the plot on the 10th anniversary of 9/11 to derail a 
train, we provided that information. So that's one area, 
information sharing.
    The second is in training, recognizing that state and 
locals, as in your experience as a prosecutor, my experience as 
an FBI agent, state and locals usually have the best resources 
locally and the best information, intelligence in connection 
with the community that they can do the best possible job if we 
in the federal government can enable them, whether it is 
through grants such as the Transit Security Grant Program, or 
with specific training they can augment, or it might be through 
the VIPR teams where we can engage with state and local law 
enforcement to say, OK, here's some operational deterrence 
things that we can do.
    The last is in--the third area is in the critical 
infrastructure improvement. So if there are critical 
infrastructures in the particular locale, how can we be 
informed by state and local police and transit authorities to 
say here's what they assess as being the vulnerable points? How 
can we work collectively to shore up those vulnerabilities?
    Senator Klobuchar. And also I know that TSA works with the 
rail stakeholders in the private sector, and according to the 
GAO, many stakeholders don't have the computer access they need 
to receive TSA security updates, and they don't quite know what 
to do with them. Can you discuss your understanding on the 
current state with those stakeholders?
    I just remember from the aviation issues, working with 
Delta, which has a hub in Minnesota, when things came up at the 
beginning about the change in the aviation security standards, 
that there were some issues there. So if you could comment with 
rail.
    Mr. Pistole. We have taken a number of steps, and GAO 
identified some of those areas that we could improve upon over 
the last several years, and I think we've made some good 
improvement, recognizing that we can do better. But there is an 
interdependency, as you note, with the stakeholders on their 
ability to receive the information, especially if there's 
classified information which we want to provide.
    But it really comes down to several things. I actually 
brought a folder of intelligence bulletins that we share with 
both stakeholders and state and local and transit police; 
different bulletins, whether it's about, for example, the 
Mumbai attack, the active shooter scenario, or the Moscow 
attack, both the subway attack and at the airport. We have a 
bulletin which Steve Lord mentioned, TRIAD. It's a daily intel 
report that we are developing.
    But what we're really looking for is input from industry 
and the stakeholders as to that actual intelligence, what they 
are really looking for, and recognizing that there's very 
little actionable intelligence. Mostly the strategic 
intelligence about, OK, al-Qaeda wants to hurt us, al-Qaeda in 
the Arabian Peninsula particularly. Here are things they've 
done in the past. Here's what they may do. But other than the 
10th anniversary of 9/11, that's the really only actionable 
intelligence as to a specific plot, other than those that the 
Chairman mentioned earlier about Zazi in New York City or the 
individual here in D.C. for the Metro, which is really an 
aspirational plot as opposed to something that was operational.
    Senator Klobuchar. Just one last question. I know during 
your nomination hearing you and I talked in my office, as well 
as at the hearing, about worker morale with TSA. And I have to 
tell you, we talked about this before but I've seen some 
improvement, just talking to people, and it's just anecdotal, 
that work at the airports. Some of it has to do with when you 
stood and defended their honor during the whole pat-down 
controversy, when they were just doing their jobs. But I 
wondered about morale among rail security TSA workers and if 
you have any thoughts on that.
    Mr. Pistole. Well, I have the perspective only from the 
Transportation Security Inspectors, those TSA employees who 
work with industry. I would defer to Chief O'Connor and Steve 
Lord in terms of what they have received. But I believe overall 
that morale is improving within TSA. There are a number of 
initiatives that we have going, and I think we have a lot of 
good things that people are proud of doing. I'm glad to hear 
your anecdotal information. That's even with your particular 
situation and----
    Senator Klobuchar. You mean the fact that my hip is checked 
all the time?
    Mr. Pistole. I was not going to raise that, Senator, but, 
yes----
    Senator Klobuchar. It's a chronic sort of----
    Mr. Pistole. I'm glad to know----
    Senator Klobuchar. It sounded sort of--``your particular 
situation'' sounded----
    Mr. Pistole. I'm glad to know that there have been some 
positive encounters there, Senator. Thank you.
    Senator Klobuchar. Chief?
    Mr. O'Connor. Yes. Every day the TSA sends us screeners to 
work with our officers in multiple cities across the nation, 
and the screeners that come are well trained, and they actually 
enjoy the break from the airports, working with us. So they get 
a little bit closer and a little bit more interactive. They 
don't have to go through the whole pat-down routine, but they 
do help us with explosive detection, as well as behavioral 
detection, and they work very good in the rail environment.
    Senator Klobuchar. Thank you.
    Senator Lautenberg. Thank you very much, Senator Klobuchar.
    Senator Wicker?
    Senator Wicker. Thank you. Mr. Pistole, did I understand 
you to say that the Zazi plot in New York City was more 
aspirational than real?
    Mr. Pistole. No. I'm sorry, Senator. That was a very real 
plot. The one that was disrupted here locally in Washington, 
D.C., the Metro last fall----
    Senator Wicker. That was Farooq Ahmed.
    Mr. Pistole. Yes. And I say aspirational only from the 
standpoint of he was interested in doing something, but he was 
doing it with an undercover FBI agent, and he did not have the 
means of doing it, whereas Zazi clearly had the means, the 
motive, the opportunity. But because of good information and 
intelligence sharing, that plot was disrupted.
    Senator Wicker. Yes, sir. Zazi had homemade bombs, 
materials, with an intent to detonate them right there in 
Manhattan. What can you tell us in a public hearing about how 
we detected these two plots, speaking in general terms?
    Mr. Pistole. I can say that it was because of very good 
intelligence sharing in the Zazi case. Of course, I was with 
the FBI at the time and helped to oversee that investigation, 
and it was very collaborative work between the Joint Terrorism 
Task Force in Denver. Of course, Zazi was in Aurora, Colorado. 
There, he and relatives had been buying ammonium peroxide from 
several beauty supply stores, and so there were actually some 
trip wires in place to have that identified if somebody was 
buying suspicious amounts of peroxide, for example.
    That did not work as effectively as it should have, but 
then because of the information sharing with state police and 
actually tracking him as he drove through the night from 
Colorado to New York City, and then working with NYPD, there 
were some issues that could have been improved in that regard 
in terms of how that was all actioned.
    But the bottom line was he and his two co-conspirators were 
tracked and were disrupted before they were able to carry out 
their plots with the backpacks. There were nine backpacks found 
in the apartment they were staying in, and we believe they were 
going to put those, the devices, the peroxide-based bombs in 
those backpacks and go in the New York City subways.
    Senator Wicker. Do you view that as an attack that actually 
could have been brought to fruition----
    Mr. Pistole. Absolutely.
    Senator Wicker.--had authorities not intervened?
    Mr. Pistole. Absolutely. He was clearly intent on doing 
that. He had built a device at a hotel in the Denver suburbs, 
and he was prepared to go about doing that. He had been trained 
back in Afghanistan. So, yes, he was ready to go. Pakistan; I'm 
sorry.
    Senator Wicker. Thank you very much. Let me just shift in 
the remaining moments to requirements contained in the 
implementing recommendations of the 9/11 Commission Act of 
2007.
    Am I informed correctly that mandated security training 
requirements are still not final, and that background and 
immigration checks of front-line public transportation rail 
employees are still not finalized? Am I correct in that 
information?
    Mr. Pistole. You are.
    Senator Wicker. Why is it taking so long? 2007, and here it 
is 2011, and the training requirements are not in place, and 
the background and immigration checks are not in place.
    Mr. Pistole. So for some context, Senator, out of the 118 
provisions of the 9/11 Act, 74 have been complete, 14 are 
overdue, and you've mentioned 2 of those. The training has 
actually taken place, but the Notice of Proposed Rulemaking 
which was mentioned earlier has taken much longer, in my mind, 
than it should have, and that is in process.
    So the substance has actually taken place, but the process 
for the NPRM has not been finalized, and so that's still in 
progress. As you know, that is a several-year process.
    The other one, we should have that out by December, by the 
end of this year, is what I understand. But again, I agree, it 
has taken too long. We did focus on the top-tier priorities, 
and those have been addressed and successfully completed. 
Training is a top priority, but it just was not done on as 
timely a basis as it should have.
    Senator Wicker. Do I understand the rulemaking process for 
something of a national security issue such as this is really 
the same as the process for the implementation of a rule 
involving a labor law or an environmental law? It's the same 
process?
    Mr. Pistole. It can--yes, it's generally the same process. 
Yes.
    Senator Wicker. Do you--would you advocate, in cases of 
national security legislation, would you advocate a streamlined 
rulemaking process----
    Mr. Pistole. Absolutely.
    Senator Wicker.--for that?
    Mr. Pistole. Absolutely, and I would appreciate support on 
that.
    Senator Wicker. Are you aware of any proposal coming from 
the administration in that regard?
    Mr. Pistole. Not off the top of my head. I could look at 
that and get back with you, Senator.
    Senator Wicker. Well, Mr. Chairman, it just seems to me, 
when we have our allies suffering from attacks in London and 
Madrid, when we see 40-plus fatalities in Moscow, 200-plus 
fatalities in India, and there's a national security issue, it 
seems that the rulemaking should be different than the 
rulemaking with regard to the construction of toys or a new way 
of looking at labor laws.
    But in conclusion, let me just observe, Mr. Chairman, that 
somebody must be doing something right in the fact that we've 
not had these incidents I mentioned as in the other four 
locations. It's something to be proud of. That's not to say 
that something won't happen this afternoon or tomorrow, because 
the threat is ongoing. But I think we are very fortunate in 
that we have escaped this type of attack for as long as we 
have. Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much. I think it's fair to 
say that we have been diligent, that we've intercepted many 
plans for people who wanted to bring destruction to the system, 
and I congratulate all branches of the area that are concerned, 
whether it's GAO or the Amtrak police, Mr. Pistole and the TSA. 
Your people are hard at work, that I genuinely believe, and we 
urge you to keep on the diligence.
    Something happened in the last couple of--things happened 
in the last couple of weeks which are distressful, and I 
address this to Mr. O'Connor, about the walk-through from New 
York to New Jersey through the PATH train tunnel without being 
detected by security. Others came, were walking through secure 
passageways.
    I don't know what measures Amtrak has in place to prevent 
something similar from happening in its rail tunnels, but 
obviously it has got to be there. We need to know that these 
access ways are secure and that we're not going to have people 
just wandering through there and doing whatever they want, as 
well as bringing terrible risk to the passengers or the system 
itself, that we are not missing the evidence that we've seen in 
front of us and not curbing it before it takes place.
    Mr. O'Connor. I agree, Senator. Funding that has been 
provided by DHS TSA to New Jersey Transit, as well as to Amtrak 
has been used to put some systems, some surveillance systems in 
that have been helpful to us in protecting those entrances to 
those tunnels. But given the recent information coming out of 
the bin Laden compound, we're looking to do even more, and 
we've been in discussion with the TSA in terms of 
operationalizing some of the grant funding to put additional 
security personnel out at critical infrastructure until we can 
target-harden some more bridges and tunnels that we're 
concerned about.
    So in short order, there will be, besides the additional 
patrols we're doing, there will be some additional fixed 
security areas that will help further protect critical 
infrastructure.
    Senator Lautenberg. Because I think it's obvious that 
fairly simple technology is available to provide the camera 
views of these access points, and somebody sitting in a 
facility, an office, can maintain watch on lots of these places 
without a lot of trouble. So I would urge that.
    Before I came to the Senate I was a commissioner of the 
Port Authority of New York and New Jersey, and I'm not sure 
what prompted me as I look back because this was some years 
ago, 1978 specifically. I decided that I would walk through the 
tunnel, not unescorted, and I did, through the PATH train, New 
York and New Jersey, as you mentioned, and I found some 
distressing things. Emergency doors were locked, fire exits 
locked, electric light systems that were antiquated and 
resulted in lots of lights going out. If one of them went out, 
it was the whole system not in use anymore, but at that point 
in time it was.
    So surveillance of those facilities has to be there, and as 
inviting as they might be for the curious, they're even more 
inviting for those who would bring terror or mayhem to our 
public.
    I thank you all for your participation today, and we're to 
make an announcement that we'll keep the record open for a 
couple of weeks. We'd ask that any questions you get, please 
respond to them as promptly as you can.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:04 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Hon. John S. Pistole
    Question 1. Under TSA's current command structure, Transportation 
Security Inspectors report to a Federal Security Director (FSD) at a 
nearby airport. In the past, the Inspector General has recommended that 
TSA place surface inspectors under the authority of a TSA headquarters 
official responsible for surface transportation. TSA has rejected this 
recommendation every time. Can you assure us that surface 
transportation security remains a priority despite this aviation-
centered structure?
    Answer. Transportation Security Administration's (TSA) Federal 
Security Directors (FSD) deploy Transportation Security Inspectors--
Surface through a risk-based approach and ensure coverage of key 
passenger rail and mass transit facilities in their regions. FSDs and 
Assistant Federal Security Directors-Inspection (AFSD-I) undergo 
surface transportation-related training, such as Rail Road 101, Highway 
Motor Carrier Safety, and Visible Inter-modal Prevention and Response, 
at the Transportation Technology Center in Pueblo, Colorado. 
Additionally, FSDs participate in various workshops and conferences 
focusing on surface transportation security issues, roles, 
responsibilities, and the agencies' regulatory authority. Surface 
Regional Security Inspectors monitor and report local FSD/AFSD-I 
activity to ensure it meets TSA's oversight requirements in the surface 
mode. TSA's cadres of inspectors assess compliance, national program 
delivery, and provide outreach on security assets in the surface 
transportation system. TSA headquarters provides program oversight to 
ensure work products at each location meet the frequency and quality 
mandated in the Regulatory Activities Plan.
    TSA remains committed to prioritizing the functions of inspectors 
in surface transportation under the oversight of its FSDs and in line 
with the latest Transportation Sector Security Risk Assessment. This 
effort is further solidified through the deployment of six Regional 
Security Inspectors for Surface Transportation (RSIs-S) who report to 
TSA headquarters. RSIs average more than 33 years of surface 
transportation experience and are recognized by the Association of 
American Railroads (AAR) as the surface security subject matter experts 
in the field. The team of RSIs, including an RSI dedicated to Amtrak 
and an RSI Coordinator, provides day-to-day support to field Area 
Directors (AD), with the Office of Compliance Programs at TSA 
headquarters providing overall program strategy and supervision. TSIs 
are responsible for all surface-related inspection, compliance, and 
enforcement activity within the areas of responsibility of the FSD 
offices. RSIs are responsible for strategy across the country and have 
direct corporate interactions with TSA's major stakeholders. Their 
positioning throughout the country provides active oversight of surface 
transportation security enhancement activities. One of the ongoing 
goals of TSA's Surface program is to continue an enhanced relationship 
with mass transit entities to identify effective practices that will 
lead to improving security in the midst of an evolving and changing 
adversary and threat stream.

    Question 2. At a hearing in April of 2010 I expressed concerns 
about TSA's hiring of inspectors with no rail or mass transit 
experience. Assistant Secretary Heyman assured me that TSA was making 
an effort to focus more on surface transportation experience when 
hiring inspectors. Has any progress been made in this area over the 
past year?
    Answer. Yes, employment eligibility now requires certification of 
surface transportation experience at each level with more substantial 
experience required for the higher pay bands. The employment of all 
TSIs, regardless of the transportation mode, is now processed at the 
airport through the Assistant Federal Security Director-Inspection 
(AFSD-I), who is the first-line supervisor and the recommending 
official for selections and at some locations the selecting official. 
At airports where an AFSD-I is not physically located the Federal 
Security Director (FSD) makes the selection.

    Question 3. The Federal Railroad Administration (FRA) has about 400 
inspectors around the country. Would it be possible for these 
inspectors to be trained to handle some of the responsibilities of TSA 
inspectors to improve efficiency and lower the cost of inspections to 
the taxpayers?
    Answer. The Transportation Security Administration (TSA) is the 
Sector-Specific Agency within the Department of Homeland Security (DHS) 
responsible for the security of the nation's transportation systems. 
DHS and TSA have engaged the Department of Transportation (DOT) and the 
FRA in several memoranda of understanding (MOU) and memoranda of 
agreement (MOA) which include roles, duties and responsibilities of the 
inspector workforce, and the sharing of information between the two 
agencies. TSA inspectors have worked with FRA inspectors in the past in 
an effort to minimize the number of inspections for a specific 
stakeholder/location. In the event a possible safety violation is 
identified, TSA security inspectors notify FRA safety inspectors, and 
vice versa, with regard to possible security violations. Regional 
Security Inspectors for Surface Transportation (RSIs-S) attend the 
regional FRA Safety Conferences, where they provide an overview of the 
TSA inspector's roles and responsibilities. RSIs continue to share 
information at the appropriate level in the field at every opportunity. 
Both TSA and FRA use data-driven models to assign inspection resources 
to areas with higher risks with respect to security for TSA inspectors 
and safety for FRA inspectors; assigning FRA's inspectors additional 
security duties would dilute the ability to focus on both types of 
risks. While responsibilities regarding safety and security remain 
separate, both the TSA and FRA continue to work in leveraging their 
respective workforces.
                                 ______
                                 
    Prepared Statement of Brian Michael Jenkins, Director, National 
  Transportation Security Center of Excellence, Mineta Transportation 
                               Institute
    Public surface transportation--trains, buses, stations, even groups 
of people waiting at bus stops--offers terrorists an attractive target: 
easy access and easy escape; concentrations of people that enable 
attackers to achieve high body counts; confined environments that 
enhance the effects of explosives and unconventional weapons; 
opportunities to cause great disruption.\1\
---------------------------------------------------------------------------
    \1\ This testimony draws on research sponsored by the Department of 
Homeland Security, the Office of University Programs, and the 
Department of Transportation's Research and Innovative Technology 
Administration.
---------------------------------------------------------------------------
    The terrorist threat to public surface transportation is real. 
Since September 11, 2001, terrorists have carried out 75 attacks on 
airliners and airports worldwide causing 157 deaths. During the same 
period, terrorists (as of May 22, 2011) carried out 1,804 attacks 
against bus and train targets, killing more than 3,900 people.
    Terrorist attacks on surface transportation have increased in 
volume and in lethality. While terrorists remain obsessed with 
attacking aviation targets, the number of terrorist hijackings and 
sabotage attempts has declined. At the same time, however, terrorist 
attacks on trains and buses have increased. Counting only incidents 
with fatalities to avoid increases due solely to better reporting, 
terrorists carried out a total of just 15 attacks with fatalities 
between 1970 and 1979. The number grew to 43 attacks with fatalities in 
the 1980s, 281 in the 1990s, and 465 between 2000 and 2009.
    Terrorists see surface transportation as a killing field. Eleven of 
the attacks since 9/11 resulted in 50 or more deaths and three of the 
attacks killed nearly 200 people. The total number of fatalities in 
these 14 attacks is the approximate equivalent of seven airline 
crashes.
    The West is not immune. Most of the attacks and the more lethal 
attacks have occurred in the developing countries like India and 
Pakistan, but there have been significant terrorist attacks on trains 
in Spain, the United Kingdom, Russia and Japan. Further terrorist 
attacks have failed in the United Kingdom and Germany and serious 
terrorist plots have been uncovered in several countries.
    It can happen here. Since 9/11, there have been seven reported 
terrorist plots involving attacks on trains in the United States.
    The Mineta Transportation Institute's database shows that:

  <bullet> Bombs were used in 74 percent of all attacks.

  <bullet> There were more attacks against bus targets than train 
        targets (49 versus 26 percent) but attacks on trains are on 
        average more lethal with 5 fatalities per attack versus 3 
        fatalities per attack for buses.

  <bullet> Suicide attacks are less lethal than concealed bombs left 
        behind in passenger compartments, which are the most lethal 
        form of attack. (This has important security consequences.)

  <bullet> Jihadist terrorist attacks on surface transportation are 
        most lethal. More of their attacks involve fatalities; and 
        nearly 9 percent of these involve more than 25 fatalities each.

    We should not fixate on suicide bombers. Obviously, not all 
security measures work against suicide bombers, but recruiting suicide 
bombers is difficult and significantly raises the threshold for 
attackers. Only two of all of the jihadist terrorist plots in the 
United States involved suicide attacks. And the deadliest terrorist 
attacks on trains in Madrid and Mumbai involved bombs concealed in 
abandoned backpacks and suitcases.
    Employee and passenger awareness counts: 16 percent of bomb attacks 
have been stopped prior to their detonation because of an aware public. 
More can be done here.
High-Speed Rail--Tomorrow's Terrorist Target?
    Terrorist attacks on high-speed rail systems have occurred in 
France, Germany, Japan, Russia, Spain and Switzerland. In Europe, Asia 
and North America, high-speed rail trains are seen as icons of a 
country's identity and economic power, and typically they serve a 
customer base that represents the country's government and business 
elite.
    When terrorists attack high-speed rail systems, they seem to prefer 
to derail trains. When they go after non-high-speed rail systems, they 
more often try to detonate bombs in passenger compartment. Most attacks 
on high-speed rail systems target the tracks (66 percent) versus the 
passenger compartment (17 percent). More attacks on non-high-speed rail 
systems target the passenger compartment than the tracks.
    Terrorists choose between volume and velocity. Passenger loads on 
high-speed rail trains, per-car and per-train are less than slower-
speed commuter or regional trains. This explains why high lethality 
with bombs detonated in passenger compartments is more achievable on a 
non-high-speed train. On the other hand, train velocity is obviously 
much greater on high-speed trains, making collisions or derailments a 
more attractive and effective choice of attack method.
    Was Osama bin Laden on the right track? Based on a statistical 
review of outcomes from accidents on high-speed rail systems, the 
ultimate tactical goal for terrorists most likely would be to focus on 
a derailment that forces the train to either collide at high speed with 
another train, bridge abutment or wall, or go off a bridge or 
embankment into a body of water or fall/roll down a significant 
elevation.
    Bombs placed on the tracks are on average twice as lethal for high-
speed rail than those placed in the passenger compartments. For non-
high-speed rail, bombs in passenger compartments have proved to be more 
lethal than bombs on the tracks.
    Overall, derailments involving mechanical means of sabotage have 
proved that they can be more lethal than bombs on the tracks. 
Technology, particularly on high-speed rail systems, will cause train 
operations to cease if a bomb detonates and causes catastrophic 
destruction prior to train arrival. Effective use of explosives, as in 
the Russian Nevsky Express attack in 2009, requires the detonation to 
be timed perfectly with a train's passage. Even in this attack, more 
casualties were crush and impact injuries and fatalities, occurring in 
the derailing rear cars (numbers 12, 13, and 14) of the train than 
those caused by the explosion under the 9th car.
    High-speed rail track and equipment safety enhancements have made 
accidental derailments less lethal. High-speed train sets are designed 
with relatively rigid, semi-permanent connections while slower-speed 
trains rely on traditional ``knuckle'' couplers. These more rigid 
connections greatly reduce the probability of a train ``jackknifing,'' 
or of partially or completely rolling over. Non-high-speed passenger 
trains tend to jackknife or flip over, causing a significantly high 
number of injuries and fatalities. Track designs have incorporated 
enhancements to guide and guard rails which keep a derailed train 
moving upright, along the right of way, keeping it from going off 
bridges, down hills, and away from trains on other tracks or bridge 
abutments and walls. Brackets have been added to high-speed train wheel 
sets in Japan to keep a derailed train on the track, reducing the 
probability significant casualties in an accidental or intentional 
derailment.
    Causing a derailment and/or collision by compromising the track 
structure or signal system might be an effective attack to execute. 
This could be done through mechanical sabotage or cyber attacks on the 
controlling computer systems.
    The most catastrophic accident outcomes have been due to higher 
speed (80 to 100 mph+) collisions with other trains or fixed objects. 
While it hasn't been used as an attack method to date, moving a 
locomotive or a string of cars into the path of an oncoming high-speed 
train is a tactic that should be considered and prevented. In the 2010 
derailment of the Bengal Express, which killed 148 people, moments 
after the passenger train derailed, a freight train going in the 
opposite direction plowed into the derailed passenger coaches. It is 
not certain if the saboteurs intended this to happen.
A Realistic Approach
    With federal assistance, transportation security clearly has 
improved during the last 10 years. More can be done, of course, but 
security proposals must be realistic.
    Security for surface transportation must comprise the entire 
spectrum of measures from deterrence and detection to mitigation and 
emergency response. Aviation security is ``front-loaded,'' that is, it 
aims at prevention. There are few opportunities to save lives after a 
plane crashes. Surface transportation security cannot be front-loaded, 
but there is much that can be done to mitigate casualties and to save 
lives after an attack, as well as minimizing damage and expediting 
recovery process.
    Protecting public places that, by their very nature, require easy 
access is difficult and costly. To be worthwhile, security must provide 
a net security benefit. The result cannot be a mere diversion of the 
attack to another accessible public place where the attacker can 
achieve the same results in casualties.
    Security must take into account economic realities. Federal 
resources will be limited. Many local governments are broke. 
Transportation systems' operators are hard pressed to keep costs down. 
We need not just more, but smarter security. We need low-cost 
solutions.
    Security must be sustainable. We cannot look forward to the end of 
terrorism when the security structures erected over the past several 
decades can be dismantled. Security measures put into place today are 
likely to become a permanent feature of the landscape. Therefore, they 
must be sustainable in terms of public acceptance, disruption, and 
costs for operation, maintenance, upgrades, evaluation, and 
replacement.
    The aviation security model will not work for surface 
transportation. Surface transportation systems are too diverse. 
Screening of all passengers would be nearly impossible. Train stations 
have too many access points. The volumes of passengers are too great. 
The number of screeners required would run to the hundreds of 
thousands. The costs would be prohibitive, the delays intolerable.
    There is no near-term technological solution. New explosives 
detection technologies are being developed, but their probability of 
detection with acceptable false alarm and throughput rates in a real 
operating environment are not clear. In addition, their deployment will 
require thorough application evaluation, new policies, and training. 
What do we do when ``Stand-off'' detection identifies a possible 
suicide bomber in a corridor packed with passengers?
    Americans must be realistic about security. One hundred percent 
security in surface transportation is not possible. Some risk is 
unavoidable, just as when we drive our automobiles, but the risk to 
individual citizens from terrorism is minuscule.
Some Easy Gains
    The role of the federal government will be to lead in research, 
develop and test new security technology, evaluate security policies 
and practices, disseminate information pertaining to the threat and 
best security practices, and assist local governments in acquisition 
and training. Canines specifically trained in explosive vapor wake 
detection are a new and important development.
    More resources are required at the local level for security 
enhancements and training. In today's environment, these will 
necessarily be limited.
    Initial and ongoing security training is required for frontline 
transportation employees--train drivers, conductors, station personnel, 
not just managers, as well as emergency responders. But providing it 
raises cost and logistical issues.
    Passengers can be enlisted as partners in their own security. 
Current ``see something, say something'' campaigns are a first step. 
They need to be evaluated to see if the message is getting through and 
how better to engage the public. Communications have to be facilitated. 
Procedures have to be established to ensure rapid diagnosis and 
response. Callers need to be acknowledged, for their efforts, even when 
it turns out to be a false alarm. Disruptions must be minimized.
    Synergies between safety and security measures as well as between 
crime prevention and counter-terrorism efforts need to be identified 
and exploited to increase efficiencies in resource deployment and 
allocation.

                                  <all>

</pre></body></html>
